1a
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued on or
after Jan. 1, 2007. See also U.S.Ct. of Appeals 3rd Cir.
App. I, IOP 5.1, 5.3, and 5.7.
United States Court of Appeals, Third Circuit.
Thomas P. KELLY, Jr., Appellant
v.
The PENN MUTUAL LIFE INSURANCE
COMPANY; Reliance Standard Life Insurance
Company
No. 18-1162
Submitted Under Third Circuit L.A.R. 34.1(a)
February 12, 2019(Filed: February 28, 2019)
On Appeal from the United States District Court for
the District of New Jersey (D.C. No. 2:09-cv-02478),
District Judge: Honorable Katharine S. Hayden
Attorneys and Law Firms
Thomas P. Kelly, III, Esq., Kelly Law Offices,
LLC, Mount Laurel, NJ, for Plaintiff-Appellant
Mee Sun S. Choi, Esq., Louis P. DiGiaimo, Esq.,
McElroy Deutsch Mulvaney & Carpenter, Morristown,
NJ, Valerie G. Pennacchio, Esq., Saul Ewing Arnstein
& Lehr, Newark, NJ, for Defendant-Non-Participating
Joshua Bachrach, Esq., Wilson Elser Moskowitz
Edelman & Dicker, Philadelphia, PA, James A. Keller,
Esq., Caitlin P. Strauss, Esq., Saul Ewing Arnstein &
Lehr, Philadelphia, PA, Edward F. Roslak, Esq., Saul

2a
Ewing Arnstein & Lehr, Newark, NJ, for DefendantAppellee
Before: HARDIMAN, SCIRICA, and COWEN, Circuit
Judges.
OPINION*
HARDIMAN, Circuit Judge.
This appeal arises under the Employee
Retirement Income Security Act of 1974 (ERISA), 88
Stat. 829, as amended, 29 U.S.C. § 1001 et seq. The
District Court held that Thomas P. Kelly, Jr. was
entitled to 24 months’ worth of disability benefits
because he could not perform his own occupation. The
Court later found that Kelly could perform some
occupation, so it denied his request for more
benefits. Kelly now appeals three orders entered by the
District Court. We will affirm.
I1
We begin by summarizing the facts and prolix
procedural history of this case, which began in
November 2005 when Kelly injured his spinein a car
accident.
About
six
months
after
his
accident, Kelly applied for disability benefits under an
ERISA plan (the Plan) sponsored by his employer,
Penn Mutual Life Insurance Company, and funded and
administered by Reliance Standard Life Insurance
Company. See Kelly v. Reliance Standard Life Ins. Co.,
2011 WL 6756932, at *2 (D.N.J. Dec. 22, 2011).
Reliance used the Plan’s definition of disability
to evaluate Kelly’s application. Under the Plan, to

3a
receive benefits for the first 24 months of disability, a
participant must show he cannot perform his “regular
occupation.” App. 258. The standard then becomes
harder to satisfy, as the participant must show he
cannot perform “any occupation ... that [his] education,
training[,] or experience will reasonably allow.” Id.
Reliance denied Kelly’s initial claim after
determining that he was capable of performing his
“regular occupation.” Kelly appealed, and in the first of
three remands to Reliance, the District Court held
that Kelly could offer more information supporting his
claim because Reliance’s administrative record was
deficient. See Kelly Br. 15; Kelly v. Reliance Standard
Life Ins. Co., 2015 WL 3448033, at *1 (D.N.J. May 28,
2015). Kelly then provided supporting information, but
he also claimed for the first time that he was disabled
under the more stringent “any occupation” standard,
which applies only to those seeking more than 24
months’ benefits.
Reliance denied Kelly’s claim a second time, and
on December 22, 2011, the District Court again
found Reliance erred. See Kelly, 2011 WL 6756932, at
*3, *5–12. This time, the Court held that Reliance had
been arbitrary and capricious in reviewing medical
evidence
and
analyzing Kelly’s
regular
occupation. Id. at *5–11. So the Court awarded Kelly 24
months’ benefits, but because Reliance had never
evaluated whether Kelly was entitled to more benefits
under the “any occupation” standard, it remanded that
claim for further review. On this second
remand, Kelly sought
over
60
months’

4a
benefits. Reliance conceded it owed Kelly 24 months’
benefits under the “regular occupation” standard but
insisted
it
still
needed
to
investigate
whether Kelly satisfied the “any occupation” standard.
Kelly appealed to the District Court, arguing
that the Court had already (in its *162 December 22,
2011 order) found Reliance owed him benefits under the
“any occupation” standard. In a May 29, 2015 order, the
Court disagreed. See Kelly, 2015 WL 3448033, at *2–4.
It said it had found no such thing and that, in any case,
it would have been powerless to do so. Id. at *2–3. The
Court thus remanded Kelly’s claim to Reliance for a
third and final time.
On this final remand, Reliance denied Kelly’s
claim for more than 24 months’ benefits under the “any
occupation” standard. And on cross-motions for
summary judgment, the District Court granted
summary judgment to Reliance and Penn Mutual on
December 31, 2017.2 App. 53–54. It held Reliance’s
decision was not arbitrary and capricious because the
record
before Reliance supported
the
finding
that Kellycould perform at least full-time sedentary
work. App. 50.
II
In this appeal, Kelly challenges: (1) the District
Court’s December 22, 2011 order awarding 24 months’
benefits and remanding to Reliance; (2) its May 29, 2015
order declining to award benefits under the “any
occupation” standard; and (3) its December 31, 2017
order upholding Reliance’s denial of “any occupation”

5a
benefits. He makes essentially two arguments. First, he
claims the District Court should have awarded him 55
months’ benefits instead of remanding. Second, he
asserts that on remand, Reliance should have granted
him benefits under the “any occupation” standard
through the end of his coverage. We address each
argument in turn.
A
Kelly first argues that once the District Court
held that he could not perform his “regular occupation,”
it followed that he could not perform “any occupation”
through the date of its order (December 22, 2011). And
if
he
was
disabled
through
the
order
date, Reliance would owe him 55 months’ benefits.
This argument suffers from a logical flaw. Just
because the District Court found Kelly could not
perform his regular occupation does not mean it
found Kelly could
perform no occupation. Kelly’s
regular job is merely one of many jobs that his
“education, training[,] or experience [would] reasonably
allow.” App. 258. Similarly, while Reliance was
arbitrary and capricious in deciding Kelly could
perform his regular job, it does not follow
that Reliance also
erred
when
it
determined
that Kelly failed to show he could not perform “any
occupation.” See Conkright v. Frommert, 559 U.S. 506,
517–19, 130 S.Ct. 1640, 176 L.Ed.2d 469 (2010); Miller v.
Am. Airlines, Inc., 632 F.3d 837, 856 (3d Cir.
2011) (“[W]here benefits are improperly denied at the
outset, it is appropriate to remand to the administrator
for full consideration of whether the claimant is

6a
disabled.”). Thus, the District Court properly
remanded Kelly’s “any occupation” claim to Reliance.3
B
Kelly next argues that even if the latest remand
were valid, Reliance should have awarded him benefits
under the “any occupation” standard. This argument
proceeds
in
two
parts.
First, Kelly requests
a *163 heightened
standard
of
review
because Reliance not only has a financial conflict of
interest (as both funder and administrator of the Plan),
but is also procedurally biased against him.
Second, Kellyasserts that under this heightened
standard, Reliance’s evaluation of the medical evidence
was
haphazard
and
incorrect.
He
claims Reliance cherry-picked evidence and erred in
finding Kelly could work a job that his “education,
training[,] or experience [would] reasonably allow.”
App. 258.
Neither part of this argument is persuasive. We
review benefit denials under the deferential “arbitrary
and capricious” standard where, as here, a plan grants
its administrator discretionary authority. Fleisher v.
Standard Ins. Co., 679 F.3d 116, 121 & n.2 (3d Cir.
2012); App. 163 (Reliance Plan). Conflicts of interest,
whether financial or procedural, are merely a
factor within our deferential analysis. See Dowling v.
Pension Plan for Salaried Emps. of Union Pac. Corp.
& Affiliates, 871 F.3d 239, 250–52 (3d Cir. 2017), cert.
denied, ––– U.S. ––––, 138 S.Ct. 1032, 200 L.Ed.2d 258
(2018).

7a
We see no reason to reject Reliance’s assessment
of Kelly’s medical condition. The record contains ample
evidence that Kelly could perform an occupation
allowed by his education, training, or experience. Four
independent doctors conducting three separate reviews
of Kelly’s file have concluded Kelly is not totally
disabled. Most recently, as part of its appeals process
on remand, Reliance referred Kelly’s file to a physician
specializing in internal medicine. After reviewing 110
pages of exam reports and laboratory results, she
determined Kellyhas had “no physical limitations or
restrictions” since May 2008. App. 936. Indeed,
as Reliance notes, public records show Kelly earned
admission to the New Jersey bar and co-founded a law
firm during his time of purported total disability.
Thus, Reliance was not arbitrary and capricious in
declining to find Kelly disabled under its “any
occupation” standard.4
Kelly suggests that his receipt of Social Security
Disability Insurance (SSDI) benefits proves otherwise.
But while an SSDI benefits decision might be relevant
to an ERISA plan administrator, a plan’s benefits
policies may differ from those that govern Social
Security disability benefits. See generally 42 U.S.C. §§
416(i), 423(d); 20
C.F.R.
§
404.1505.
Thus, Kelly concedes that SSDI decisions do not
bind Reliancebecause Reliance has not incorporated
SSDI policies into its Plan. Reply Br. 21; see Moats v.
United Mine Workers of Am. Health & Ret. Funds, 981
F.2d 685, 689 (3d Cir. 1992). And even on its
face, Kelly’s SSDI decision hardly helps his ERISA
case, because the Social Security Administration

8a
found Kelly can perform some sedentary work. App.
1022.
***
For the reasons stated, we will affirm the orders
of the District Court.
Footnotes
*This disposition is not an opinion of the full Court and
pursuant to I.O.P. 5.7 does not constitute binding
precedent.
1The District Court had jurisdiction under 29 U.S.C. §
1132(e). We have jurisdiction under 28 U.S.C. § 1291.
Our review of the District Court’s summary judgment
is plenary, and we apply the same standard as the
District Court. E.g., Blunt v. Lower Merion Sch. Dist.,
767 F.3d 247, 265 (3d Cir. 2014).
2Kelly did not oppose Penn Mutual’s motion for
summary judgment, App. 53, and his arguments on
appeal do not mention Penn Mutual.
3Contrary to Kelly’s argument, McCann v. Unum
Provident, 907 F.3d 130 (3d Cir. 2018), does not hold
otherwise. McCannexcused a claimant’s failure to
exhaust administrative remedies. See id. at 151–52.
Exhaustion is not at issue here.
4To the extent there are gaps in the record, they result
from Kelly sandbagging Reliance. Kelly evaded Relianc
e’s repeated requests for updated medical records,
information from his successful SSDI hearing, and
more. See, e.g., App. 902–04 (Reliance’s June 5, 2015

9a
letter to Kelly); App. 957–58 (Reliance’s July 22, 2015
follow-up); App. 960–63 (Kelly’s September 4, 2015
response).

10a
12/31/2017
NOT FOR PUBLICATION
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
THOMAS P. KELLY, JR.
Plaintiff,

Civil No.: 09-2478 (KSH)
(CLW)

v.
RELIANCE
STANDARD LIFE
INSURANCE
COMPANY, and PENN
MUTUAL LIFE
INSURANCE
COMPANY

OPINION

Defendants.

Katharine S. Hayden, U.S.D.J.
This matter has once again come before the
Court on a final round of summary judgment motions
brought by all parties. (D.E. 211, 215, 216.) They are
aware of the facts and the legal issues involved in this
case, which have been discussed in the Court’s previous
opinions (D.E. 106, 171, 193) and vigorously litigated
since plaintiff Thomas P. Kelly, Jr. (“Kelly”) first filed
his complaint in May 2009 against Reliance Standard

11a
Life Insurance (“Reliance”) and Penn Mutual Life
Insurance Company (“Penn Mutual”) (D.E. 1).
At bottom, Kelly claims that Reliance, the
company that funded and administered his long-term
disability (“LTD”) plan with his former employer, Penn
Mutual, wrongly denied his claim for benefits in
violation of the Employee Retirement Income Security
Act of 1974 (“ERISA”), and that Penn Mutual breached
fiduciary duties it owed him. The Court is presented
with two issues on these cross-motions: First, whether
Reliance’s April 21, 2016 decision to deny Kelly’s claim
for LTD benefits based on the “any occupation”
disability definition under the plan was made in an
arbitrary and capricious way in violation of ERISA.
And second, whether Penn Mutual has any liability for
violating ERISA as a co-fiduciary.
BACKGROUND
Kelly was hired by Penn Mutual on December 2,
2002, and in 2005 he was working as a managing
compliance officer. (D.E. 5-1 at 3.) As a benefit of his
employment he was insured under a long-term
disability policy underwritten by Reliance, which also
possessed the discretionary authority to determine
Kelly’s eligibility for plan benefits. The terms of the
LTD plan require that a plan participant seeking
benefit payments must show “total disability” as the
plan defines it. (D.E. 203-2 at 1-2.) In order to collect
LTD benefits for an initial period of 24 months, the
participant must establish that his disability extends
beyond what the plan calls the “elimination period,”—a
buffer zone beginning 180 days after the employee’s last
day of work. Id. Total disability for this 24-month

12a
period is defined as the inability to perform the
substantial duties of the participant’s “regular
occupation.” If the participant qualifies and receives 24
months of payments, the plan calls for a different
definition of total disability and a reevaluation of the
participant. The language change is significant—under
the new definition, the participant must be unable to
perform the substantial and material duties of “any
occupation … that [his] education, training or
experience will reasonably allow.” Upon that showing,
the plan administrator will pay out benefits beyond the
first 24-month period. The LTD plan reads in relevant
part:
“Totally Disabled” and Total Disability” mean,
that as a result of an Injury or Sickness:
(1) during the Elimination Period and for the
first 24 months for which a Monthly Benefit is
payable, an Insured cannot perform the
substantial and material duties of his/her
“Regular Occupation”;
…
(2) after a Monthly Benefit has been paid for
24 months, an Insured cannot perform the
substantial and material duties of any
occupation. Any occupation is one that the
Insured’s education, training or experience will
reasonably allow. We consider the Insured
totally Disabled if due to any Injury or Sickness
he or she is capable of only performing the
material duties on a part-time basis or part of
the material duties on a Full-time basis.
D.E. 203-2 at 1-2.

13a
The parties do not dispute that Kelly’s coverage under
the plan ended on his 66th birthday, which occurred on
August 24, 2012. (D.E. 57-1 at 6.)
On November 7, 2005, a truck backed into the car
Kelly was driving, exacerbating an existing back injury
he had sustained while snowmobiling in the 1990s.
(D.E. 106 at 2.) After deciding he could not return to
work, Kelly sought medical treatment from an
orthopedic surgeon, Dr. Walter Dearolf, who examined
him on five occasions between November 2005 and June
2006. (D.E. 29-2 at 29-31.) Kelly was familiar with Dr.
Dearolf’s practice because he was previously treated by
a colleague of Dearolf’s in connection with the older
snowmobiling injury. After Kelly’s first visit on
November 15, 2005, Dr. Dearolf described his condition:
He has a history of being involved in a motor
vehicle accident eight days ago where he was
the restrained driver, driving forward when a
truck that was in the intersection backed up
into him. There was no airbag deployment.
He noted immediate pain initially in his neck
and in his back. He then developed numbness
and tingling down his right leg. The right leg
seemed like it wanted to buckle on him. He has
had back problems before but they would
come and go and they didn’t involve any leg
symptoms. There was no loss of consciousness at
the time.
He has no new medical problems. He has been
otherwise healthy in the interim.
Id. at 29.

14a
Dr. Dearolf also noted the results from the exam:
Exam shows today some mild tenderness in the
trapezius and neck vertical motion is good.
Exam of his back shows tenderness over the
sacroiliacs. There is some spasm. Lumbar
motion is moderately restricted. There is
painless rotation of the hips. Sitting root test is
positive on the right, negative on the left. There
is some mild toe extensor weakness on the right
with some decreased lateral border of the right
calf and foot. There is no weakness or sensory
disturbance on the left.
AP and lateral lumbar spine films are taken.
There is narrowing at L4/5 and L5/S1.
I recommend he have an MRI performed to see
if he has a herniated disc accounting for his
radiculopathy. He has some mild weakness. This
may also be partly due to pain. I have discussed
the significance of this with him. Should he
worsen or develop any progressive symptoms,
he is to go to the emergency room or get back to
me immediately. Otherwise, we will proceed
with the MRI to see if he might benefit from the
Medrol Dosepak or epidural. In addition,
prescription for Percocet 30 tablets to take as
needed for pain.
Id.
On November 18, Dr. Dearolf’s notes indicate
that he left Kelly a voicemail message stating that the

15a
MRI report “showed no change from the previous” MRI
that was taken before the accident.1 Id.
Kelly’s second visit was on January 20, 2006,
generating these notes:
Still having a lot of pain in his back. He can’t
straighten up all the way. It radiates into his
thigh somewhat. He had seen his family doctor.
He got a prescription for some Flexeril. It really
knocked him for a loop. It made him groggy. It
did take away a lot of his spasm. He finds the
pain medicine didn’t really help him as much.
On exam today he has trigger points in both
sacroiliacs. Lumbar motion is moderately
restricted. Sitting root and straight leg raising
test are mildly restricted and produce some
buttock pain. There is no sensory disturbance or
motor weakness.
Because of his symptoms, I recommend he get
into some outpatient therapy. Also add a TENS
unit. He will follow up in a month.
Id. at 30.
On March 7, 2006 Kelly began physical therapy
at Cornerstone Physical Therapy under the direction of
James J. Seykot, MSPT. Kelly underwent a physical
therapy regimen that included 25 visits through June
2006. (D.E. 29-2 at 39-53.)

1

It appears from the record that Dr. Dearolf was referencing an
MRI report contained in Kelly’s medical file taken in connection
with the earlier snowmobiling injury.

16a
On March 14, Kelly saw Dr. Dearolf for a third
time. The treatment record from that visit reads:
Going to therapy. It seems to be helping
somewhat. He is still quite stiff. Apparently
they have told him about his abdominal
musculature is weak. No pain radiating down
the legs. He is using a fair amount of Motrin. It
seems to be helping.
On exam there is mild tenderness in the
paraspinal lumbar and thoracic musculature.
Lumbar motion is still restricted. Sciatic tension
signs, however, are negative today.
I have discussed things with him. He will
continue in his therapy. He will follow up in six
weeks.
Id. at 30.
On May 2, 2016, Kelly saw Dr. Dearolf for a
fourth time. From his notes on that visit:
Finds that the therapy seems to be helping.
Hasn’t really helped with the pain but he feels
he is more flexible. He feels a little more limber.
He thinks it is helping. He has occasional
flickering symptoms into his right leg. He has
had similar trouble to that in the past. He may
end up requiring an epidural.
Exam today shows that there is still some
mild tenderness in the paraspinal musculature,
in both the lumbar and thoracic region. Motion

17a
is still restricted but improved from last time.
Sitting root and straight leg raising are
negative. Sitting root on the right makes him
tend to arch his back a little. There is no toe
extensor weakness.
We will continue therapy at this point. It seems
to be helping. He will follow up in a month.
Id. at 31.
The notes from Kelly’s final visit on June 28, 2006
read:
Therapy is helping. He gets a lot more limber
and feels better but then it tightens up and he
gets pain again. It seems like he is not making
progress as fast as he would like.
Exam shows he has trigger points in the
thoracic and lumbar spines today. There is
painless rotation of the hips. There is no toe
extensor weakness.
I reviewed his therapy report with him. We
will go ahead and continue him in therapy. He
will follow up in about six weeks unless there is a
problem sooner.
Id. at 31.
Kelly timely filed an application to Penn Mutual
for long-term disability benefits. It was Penn Mutual’s
obligation to forward his claim along with accurate
supporting documentation, such as a job description, to
Reliance. The administrative record at the time that

18a
Reliance began to administer it consisted of the job
description provided by Penn Mutual, Dr. Dearolf’s
treatment records from the five visits, notes from the
physical therapy sessions at Cornerstone Physical
Therapy, and two letters written by the physical
therapist. (D.E. 29-1-2.)
On July 26, 2006, Reliance’s vocational
rehabilitation specialist, John J. Zurich, reviewed
Kelly’s claim file, and classified Kelly’s occupation at
Penn Mutual as “sedentary.” (D.E. 29-1 at 36-38.)
Marianne P. Lubrecht, BSN, a Reliance nurse,
reviewed Kelly’s medical records and concluded that,
based on the description of Kelly’s occupation as
sedentary, the medical records did not support the
stated restrictions. Id. at 89-101.
In October 2006, Reliance denied Kelly’s claim
for LTD benefits, and Kelly timely appealed. In
support, he submitted an updated job description, but
no new medical records. Zurich reviewed the file with
the revised job description, and once again concluded
Kelly’s occupation should be considered “sedentary.”
In February 2007, Reliance referred Kelly’s file
to an independent physician, Dr. Howard Choi, who
reviewed all the medical information and completed a
report with the following conclusions:
There is no evidence provided that conclusively
supports that plaintiff suffered any injuries
other than a potential lumbar sprain/strain
injury.
It is not clear at what level the disc herniation
was, when it was first noted, how it was

19a
diagnosed (e.g. clinically, MRI), and whether it
was a chronic/ degenerative condition.
Overall, the claimant’s alleged degree and
duration of functional impairment seem
significantly out of proportion with the nature
of the injury and objective findings.
Dr. Dearolf’s disability statements were lacking
in any detail regarding the claimant’s activity
levels and did not provide any objective
evidence to support the allegation that the
claimant could not do any work; and there is no
objective basis for any restrictions or limitations
from sedentary-level work provided in the
documentation available for any time period.
D.E. 29-1 at 91.
In March 2007, Reliance affirmed its denial of
Kelly’s LTD’s claim. (D.E. 29-1 at 97.) Two years later,
Kelly sued both Reliance and Penn Mutual, claiming
that Reliance’s denial of benefits was arbitrary and
capricious in violation of ERISA, and that Penn Mutual
had breached its fiduciary duties as a co-fiduciary of the
LTD plan by providing the wrong job description to
Reliance. (D.E. 1.) The original complaint included
RICO claims against both defendants, which were
dismissed on motion, and a claim against Penn Mutual
alleging a violation of the Family and Medical Leave
Act, which was dismissed by stipulation. The claims in
the remaining first two counts alleged ERISA
violations against both defendants.
In the spring of 2010, the parties cross-moved for
summary judgment (D.E. 55, 56, 57). On December 14,

20a
2010, after oral argument, the Court found that the
administrative record was deficient; that Reliance had
relied on an incorrect definition of Kelly’s occupation;
that Penn Mutual provided an incorrect job description
to Reliance; and that Kelly had not been helpful in
providing information during the claim process. The
Court remanded the claim back to Reliance and directed
it to make a decision on the merits, while also
permitting Kelly to supplement the administrative
record. (D.E. 87.)
Kelly did submit a supplemental certification on
January 11, 2011 (D.E. 101-2 at 7-14) that aimed to
rectify the “incorrect and misleading statements about
[his] job title and associated duties” at Penn Mutual.
Kelly maintained that his work mandated at least 45%
travel, and that the job description Reliance was using
left out other travel requirements necessary for his
position. Kelly attached a supplemental letter report
dated January 4, 2011 from Dr. Dearolf, as well as the
photocopies of the MRI images taken when he began his
treatment with Dr. Dearolf in November 2005. In the
supplemental letter report, Dr. Dearolf wrote in full:
To Whom It May Concern:
Thomas Kelly has been a patient in our
practice since the early 1990s when he
sustained a compression/burst fracture of T12
and he was treated by my partner Dr. Henry
DeVincent. He has since retired and I have
seen Mr. Kelly over the years dating back to
the mid 90’s. In November 2005, he was involved
in a motor vehicle accident which aggravated his
underlying condition. MRI scan at that time
revealed his previous compression fracture at
T12 with degeneration of the disc T12-L1 and

21a
T11-12. There was also a posterior spur at the
T11-12 interspace with gibbus deformity. This
was unchanged from previous but was
aggravated by the motor vehicle accident. In
addition, there was a left sided disc herniation
at L5- S1. He was seen by me during this period.
He had radicular symptoms along with limited
motion in his lumbar and thoracic spine, lumbar
sprain and strain, lumbar radiculopathy and
degenerative joint disease in his back. Since that
period of time, he has been unable to return to
his previous occupation as a compliance officer
for Penn Mutual Life Insurance Company. In
addition, he has been unable to sit for any
prolonged period of time or stand for any
prolonged period of time making him incapable
of sedentary work. Driving for any period of
time also aggravates his symptoms.
It is my medical opinion that he is unable to
perform sedentary and non-sedentary duties
associated with his regular occupation or with
any occupation at this time. His symptoms on a
permanent basis are unlikely to improve over
time.
I hope this information is sufficient for your
needs.
D.E. 203-2 at 92.
Also, in the supplemental certification Kelly
claimed for the first time that he suffered from chronic
cardiac issues dating back to the age of 25, when he was
“diagnosed with Supraventricular Tachycardia, a
condition that caused, inter alia, a spontaneous increase

22a
in heart rate.” (D.E. 101-2 at 21-23.) Over the years,
Kelly stated, doctors had conducted several cardiac
procedures on him, and in the spring of 2007 he began
seeing a cardiologist, Dr. Dina Yasmajian. He
complained to Dr. Yasmajian of his shortness of breath
and chest pains. Kelly also stated that he was
previously diagnosed by another cardiologist with
myocardial infarction resulting from a blocked vessel.
According to Kelly’s certification:
64: The symptoms associated with chronic atrial
fibrillation are routinely severe enough to stop
me from performing even sedentary activities
until I am able to catch my breath and relax
until the symptoms have passed. As one might
expect, this condition also caused me an
increased level of anxiety, which increased the
time necessary for the symptoms to subside.
65. The fatigue resulting from my cardiac
symptoms is debilitating and generally longlasting and prevents me from performing
most activities. Moreover, the onset and
increase of my cardiac symptoms has
interfered with the pain management that is
associated with my spinal cord injury and
associated back pain. This is true because the
medication necessary to alleviate my cardiac
symptoms contraindicates the use of most pain
relievers that could otherwise be used to offset
my severe back pain.
D.E. 101-2 at 23.
Reliance sent Kelly’s file with the supplemental
materials to two specialists who issued a joint report on

23a
February 3, 2011. Dr. Robert Green, an orthopedic
surgeon, noted there was a complete absence of
orthopedic treatment post-June 2006, and concluded
that Kelly had a “lumbar sprain of a mild degenerative,
previously somewhat compromised spine.” (D.E. 102-2
at 13-27.) He found “no objective evidence for
restrictions or limitations” from an orthopedic
standpoint. Id.
A cardiologist, Dr. Gregory Helmer, noted in
that report, that Kelly’s cardiovascular system was
stable “both by exam and EKG” in August 2006, and
that a stress test administered in September 2006
“showed excellent exercise tolerance with normal left
ventricular functions and no myocardial ischemia.” Dr.
Helmer concluded that “Mr. Kelly had stable coronary
artery disease” and there are “no limitations on sitting,
walking, standing, pushing, conversing, phone use,
computation, or paperwork.” (D.E. 103-3 at 18-19.)
On February 18, 2011 Reliance denied Kelly’s
claim for benefits on the basis that he did not show that
his disability made him unable to perform his regular
occupation beyond the 180- day elimination period.
(D.E. 103-2 at 2.) In the denial letter, Reliance cited a
report completed by a vocational specialist, Jodi Barach,
who reviewed Kelly’s supplemental certification and
concluded that notwithstanding his claimed medical
problems, “Mr. Kelly would be capable of performing
the material duties of a Managing Agent at Penn
Mutual Life Insurance Company.” (D.E. 103 at 6.)
Additionally, Reliance solicited the opinion of Kelly’s
superior at Penn Mutual, Frank E. DePaola, regarding
the travel requirements associated with Kelly’s job. In
a letter sent to Reliance, DePaola said that Kelly had to

24a
travel about 10% of the time, and had the authority to
delegate many of these travel duties if he wanted to. Id.
Kelly moved for summary judgment on his
ERISA claims against Reliance. In an opinion dated
December 22, 2011 (D.E. 106), this Court determined
that the remand decision was arbitrary and capricious
because it selectively reviewed the medical evidence in
the administrative record and placed an undue
emphasis on doctors who never treated Kelly. The
Court found that Reliance’s “apparent wholesale
rejection of Kelly’s description of his job duties was
unreasonable and led to the additional unreasonable
failure to countenance the existence of any restrictions
or limitations during the Elimination Period.” Id. at 11.
And, “Reliance’s failure to consider the duties Kelly was
actually performing prior to the accident and whether
Kelly was physically capable of performing those duties
after the accident was unreasonable and demonstrates
Reliance’s exercise of discretion in denying Kelly’s
claim was arbitrary and capricious.” Id.
The Court entered an order (D.E. 107) that
directed Reliance to provide all benefits due Kelly
“consistent with the rulings” in its written opinion (D.E.
106). Kelly’s motion for summary judgment on his claim
against Penn Mutual was denied. The order gave Kelly
leave to file an application for counsel fees, noting that
this did not mean that an award would be granted. The
parties were directed to appear before then-Magistrate
Judge Patty Shwartz for a settlement conference the
following month. (By this time the 24-month period for
payment of LTD was long past and Kelly’s cut-off date
of August 24, 2012 for additional LTD payments was on
the horizon.)
Judge Shwartz presided over the settlement
conference and very shortly thereafter, Kelly’s lawyer

25a
filed a letter to her on the docket confirming that a
settlement agreement had been reached. The letter,
dated January 30, 2012, reads in full:
Your Honor:
I am pleased to inform the Court that a
settlement has been reached between the
plaintiff and defendant Reliance Standard Life
Insurance Company in the above- captioned
matter. Subsequent to Friday’s Settlement
Conference, negotiations continued between
these two parties. Ultimately, the plaintiff’s
final offer of settlement was accepted. These
parties have agreed that, with respect to
Reliance Standard, Judge Hayden’s ruling on
plaintiff’s motion for counsel fees shall be final
and that no appeal shall be filed.
The claims against defendant Penn Mutual have
not been settled. On behalf of the plaintiff, thank
you for assisting the parties with their dispute
resolution efforts.
D.E. 116.
The letter confirmed Reliance and Kelly had
agreed on a settlement number and the counsel fee
application would be decided by the Court – but
resolving the Penn Mutual claim proved particularly
nettlesome for the parties. Ultimately Reliance
reported an impasse in a letter to Judge Shwartz dated
February 27, 2012:

26a
On January 27, 2012, the parties attended a
settlement conference before you. Immediately
following the settlement conference, Reliance
Standard and Plaintiff agreed to a settlement.
Thereafter, Reliance Standard sent to Mr. Kelly
the proposed settlement agreement. Mr. Kelly
asked that certain changes be made to it, many
of which were incorporated. However, Mr.
Kelly refused to agree to certain terms which
are essential to the settlement.
D.E. 120.
In the letter, Reliance asked Judge Shwartz to
schedule a telephone conference to address the
settlement issues. The next day Kelly filed a motion to
enforce the settlement, attaching an email he had
received from the attorney for Reliance right after the
January 27th settlement conference:
While walking to the train, my client decided to
accept your final offer in order to put the matter
to rest. We will pay 400,000 to satisfy the benefit
claim, Judge Hayden will decide the fee motion
and no party will appeal the court’s decisions, re
benefits, RICO, etc. Including the fee ruling.
D.E. 121.
Kelly argued in his motion papers that he had
accepted the settlement offer, and that in violation of
their agreement Reliance was now tacking on additional
conditions. Id. On Reliance’s application, the Court
administratively terminated his enforcement motion
because by filing it, Kelly violated a prior scheduling
order directing the parties to request leave of court

27a
before filing any motions. (D.E. 124.) Kelly thereafter
re-filed the motion after obtaining leave (D.E. 126) and,
unsurprisingly, Reliance disagreed with his narrative
and contended he was the party who upended the
settlement by refusing to sign a release and continuing
to pursue claims against Penn Mutual. (D.E. 127.) (By
pursuing damages from Penn Mutual, Kelly was
exposing Reliance to a claim for indemnification were he
successful.) A month later, the Court referred the
matter to Hon. James F. Keefe Sr. (ret.) to mediate the
settlement issues, and Kelly’s enforcement efforts were
administratively terminated without prejudice. (D.E.
130.)
In September 2012, Penn Mutual advised the
court that mediation had failed. (D.E. 135.) One week
later, Kelly renewed his motion to enforce. (D.E. 136.)
While it was pending, Kelly filed a letter on the docket
asking the Court to set a date to try his claims against
Penn Mutual despite the ongoing dispute about whether
the ERISA claims against Reliance were actually
resolved. (D.E. 140.) Penn Mutual responded by filing
a letter on the docket arguing that a trial date was not
appropriate at the time, instead requesting that the
Court “convene a conference at which time we can
discuss the appropriate resolution of the remaining
issues either by means of settlement or motion
practice.” (D.E. 141.)
On September 18, 2013, Kelly filed a Rule 11
motion for sanctions against Reliance and its attorneys
for $36,000,000 (thirty-six million dollars) for “their
willful abuse of the judicial system.” (D.E. 143-1 at 5.)
In that motion, Kelly stated that “[s]anctions are
necessary here because in this case, and in dozens of
others like it over the last decade, the defendant and its
lawyers have been engaged in a scheme whereby they

28a
force disabled plaintiffs to re-litigate well- settled legal
issues with the intent of delaying payment of insurance
benefits.” Id. On Reliance’s application, the Court
administratively terminated Kelly’s motion for
sanctions because he had again failed to request leave
before filing. (D.E. 153.) In February 2014, Kelly filed
a letter on the docket addressed to Magistrate Judge
Waldor requesting leave to file sanctions, and both
defendants opposed the motion.
Looming over the settlement efforts, and fueling
the parties’ motion practice at the time, was the hotly
contested issue of whether this Court’s favorable
decision in December 2011 required Reliance to pay
LTD benefits to Kelly as unable to work at “any
occupation,” as opposed to directing payment of the 24month LTD benefit based on inability to work at his
“regular occupation.”
On July 21, 2014, the Court denied Kelly’s motion
to enforce the settlement terms that had been described
in the parties’ exchanges in January 2012. (D.E. 171.)
The Court noted at the outset that “[w]hile Kelly is
frustrated with the length of time it has taken to
resolve his issues with Reliance, the Court’s review of
the record reveals that the movement Kelly wants is
stalled by all parties’ confusion over what happens next
with his claims against the other defendant, Penn
Mutual.” Id. at 1. The Court also pointed out that that
the parties had been talking past one another:
The time has come for Kelly to define what he
wants from [Penn Mutual], and for Reliance and
[Penn Mutual] to indicate what Reliance was
settling by way of the [January 2012] email and
what if anything [Penn Mutual] plans to offer

29a
Kelly by way of benefits. Filling in those gaps
motivated the Court’s directions that all parties,
not just Kelly and [Penn Mutual], pursue
negotiations as to Penn Mutual’s obligations.
Evidently negotiations and even mediation
failed as the vehicle for clarification and
resolution. As a consequence, the Court
denies Kelly’s motion, and in the absence of any
indication the parties can reach agreement, the
Court orders motion practice.
Id. at 2.
In a letter dated August 5, 2014, Reliance asked
Kelly to provide additional information to supplement
the administrative record so Reliance could administer
Kelly’s “any occupation” claim. (D.E. 216-6 at 2-4.)
Specifically, Reliance asked Kelly to furnish, among
other things, a daily living questionnaire, an
authorization form whereby Reliance could review the
records of his disability application to the Social
Security Administration, copies of income tax returns.
Reliance
also
served
interrogatories
seeking
information about Kelly’s work as an attorney.
While the litigation was going on, Kelly had
applied for social security disability (“SSD”) benefits
and on August 6, 2014, an administrative law judge
(“ALJ”) issued a favorable ruling after holding a
hearing at which Kelly and a vocational expert testified.
The ALJ found that Kelly was disabled under the
regulations issued by the Commissioner of Social
Security, with an onset date of November 10, 2005. In
making his determination, the ALJ considered Kelly’s
age, then 67, in light of the “grid,” or the MedicalVocational Rules, that guide SSD determinations. The
opinion reads in relevant part:

30a
The claimant testified he suffered a back fracture
and other back injuries in a 1993 incident and
thereafter experienced an exacerbation of
these injuries in a 2005 motor vehicle accident;
he reported he was prescribed a cane after this
accident and continued to use it. He testified
that he has also suffered from cardiac conditions
since young adulthood, with a blockage in 2000,
catherization in 2001 (with stent placement) and
heart attacks in 2008 and 2012. The claimant
indicated he experienced shortness of breath
and fatigue in connection with his cardiac
condition.
The claimant testified he was also experiencing
tingling and a lack of sensation in his right hand
and noted he could only walk a couple hundred
yards with a cane. He testified he could stand for
20-25 minutes and sit for about the same amount
of time. Though he indicated he could lift up to
30 pounds, he reported he would be unable to
walk the next day. He complained of daily low
back pain that radiated to his groin; he reported
his pain level was the same as 2 years ago. The
claimant reported he underwent about half
dozen epidural steroid injections and continued
to suffer from difficulty sleeping.
In a prepared statement, the claimant reported
he continued to experience shortness of breath
and fatigue for periods of varying duration. He
indicated his cardiac symptoms were routinely
severe enough to stop him from performing
even sedentary activities until his symptoms

31a
resolved. In his 2011 Function Report, he
reported he required rest throughout the day,
awakened several time a night, had difficulty
dressing/bathing due to pain, had decreased
attention
span/attention
to
detail
and
complained of general difficulty lifting more than
10- 15 pounds.
…
The undersigned finds that he can sit for 30-40
minutes and walk for 5-10 minutes.
…
Although the vocational expert testified that an
individual with the claimant’s age, education,
work experience and residual functional
capacity could perform other work in the
national economy, the Medical-Vocational Rules
direct a finding of disability.
D.E. 203-2 at 16-22.
On October 9, 2014, Reliance notified Kelly that
it would be issuing payment of $180,127.52 on his
“regular occupation” claim for 24 months of disability
benefits. (D.E. 216- 15.) Reliance then filed a motion to
remand so that it could administer the “any occupation”
claim. (D.E. 179.) In response, Kelly filed a crossmotion to hold Reliance in contempt for its “unlawful
refusal to comply with the Court’s 2011 Order” because
“this Court completely rejected the defendant’s current
position and awarded the plaintiff more than five years’
worth of disability benefits, most of which has not been
paid.” (D.E. 183-1 at 5.)

32a
In an opinion dated May 28, 2015 (D.E. 186), the
Court held that it was “beyond dispute” that the
December 22, 2011 opinion (D.E. 106) “only extended to
the claims Reliance had already considered, namely,
Kelly’s claim for benefits on his account for his inability
to perform the duties of his regular occupation.” Id. at
2. The Court held it was “powerless” to decide the “any
occupation” issue, and granted Reliance’s motion to
remand for an administrative determination. Id. at 3.
Additionally, the Court denied Kelly’s crossmotion for civil contempt sanctions, concluding that
“Kelly fail[ed] entirely to show how Reliance disobeyed
any aspect of that decision or order. To the extent
Kelly claims Reliance failed to comply in that it refused
to pay LTD benefits beyond 24 months under the ‘any
occupation’ standard, the Court already has ruled
herein that the December 22, 2011 order did not
encompass such relief.” Id. At 3.
On June 5, 2015 and July 22, 2015, Reliance sent
Kelly correspondence requesting that he furnish
additional information to help it administer his “any
occupation” claim. (D.E. 203-2 at 86.) Meanwhile on
June 11, 2015, Kelly filed a motion for reconsideration
(D.E. 188), which the Court denied in an opinion dated
August 31, 2015 (D.E. 193), stating in relevant part:
Kelly makes the same argument in this
reconsideration motion as he made in
opposition to Reliance’s motion to remand and
his own cross-motion for summary judgment.
He contends that Reliance did “consider” his
claim for benefits under the “any occupation”
standard, and the Court’s finding that he was
“entitled to receive the LTD benefits owed to

33a
him under the Plan” therefore encompassed
such relief. This argument, once again, goes too
far. Was Kelly’s claim for “any occupation”
benefits presented to Reliance, along with his
claim for “regular occupation” benefits? Yes.
Did Reliance decide whether Kelly was entitled
to benefits under the “any occupation”
standard? No, it indisputably did not.
Id. at 3.
On September 15, 2015, Reliance denied Kelly’s
claim for benefits under the “any occupation” provision
of the LTD plan. (D.E. 203-2 at 50-54.) The file on
Kelly consisted of what had been provided when
Reliance made its decision after the Court remanded his
claims in 2011, Kelly having decided not to provide the
additional information Reliance sought in 2015.2
On March 4, 2016, Kelly appealed Reliance’s
denial with a raft of arguments supporting his claim to
“any occupation” LTD benefits. (D.E. 216-16 at 1-24.)
Regarding
Reliance’s
request
for
additional
information, Kelly argued it was “outside the
permissible scope of what Mr. Kelly was required to
provide.” In sum, Kelly maintained that the record was
complete and up-to-date as of January 11, 2011, when he
provided the supplemental certification in support of his
original claim for benefits. According to Kelly’s appeal
submissions,
2

In paragraphs 1 through 6 of the Supplemental Statement of
Material Facts Reliance submitted on its cross-motion for
summary judgment (D.E. 216-2), Reliance states that Kelly was
admitted to the New Jersey bar in 2008, remains in active status,
holds himself out as a partner in the firm Kelly Law Offices, LLC.,
and has authored published practice articles.

34a
The applicant is not required to assist a plan
administrator who is on an obvious fishing
expedition like the one here. [Reliance] was
obviously searching for ways to deny Mr. Kelly’s
claim for benefits instead of evaluating the claim
based on the objective medical evidence that was
provided in 2011.
Id. at 18.
Kelly also argued that Reliance’s calculation of
benefits in 2014 was incorrect. He stated that there was
no basis for the reduction of monthly LTD benefits due
to his theoretical eligibility for social security disability
benefits. As part of the appeal process, Reliance
referred Kelly’s claim file to a fourth independent
physician, internist, Dr. Stephanie Kokseng, in
February 2016, who concluded that Kelly’s medical file
did not support a finding of total disability. As she
indicated in her report:
Based on the enclosed documentation and with
a reasonable degree of medical certainty, since
05/25/08 the claimant has no physical limitations
or restrictions. After that date, the claimant
followed up with cardiology, and the
documented physical findings during those
visits do not support the placement of physical
limitations or restrictions. The examinations
included normal neurologic and extremity
examinations. The physician did not perform
extensive
neurologic
or
musculoskeletal
examinations and therefore, did not document
any physical limitations or impairments that the
claimant may have.

35a
D.E. 216-8 at 2-8.
Reliance forwarded the claim file with Dr.
Kokseng’s report to Reliance’s Quality Review Unit.
On April 21, 2016, Richard Hellwig, a Senior Benefits
Analyst, issued a written denial, which stated in
relevant part:
As noted in Dr. Dearolf’s notes just after the
accident, an MRI revealed no changes
compared to a previous MRI performed prior
to the accident. Physical consultation notes
documented
that
Mr.
Kelly
reported
improvement and in fact every physical therapy
note beginning March 28, 2006, until the most
recent note dated June 15, 2006, documented
that Mr. Kelly reported his pain was either the
same or decreased, and that functional mobility
was either the same or improved with each
successive visit. Furthermore, although you and
Mr. Kelly have alleged that his cardiac
symptoms are impairing, cardiology records
dated May 25, 2008 provide ongoing support
that Mr. Kelly is stable from a cardiac
standpoint. In light of Mr. Kelly’s cardiac
diagnoses, Dr. Helmer provided restrictions
and limitations which would be well within the
requirements necessary to perform full-time
sedentary work. Mr. Kelly stated in his affidavit
that the fatigue resulting from his cardiac
symptoms is “debilitating and generally longlasting and prevents me from performing most
activities” however, the most recent record
from Dr. Yazmajian, which is dated only two
months earlier, confirmed that Mr. Kelly was

36a
doing well with no new symptoms and that he
has “no cardiac complaints.”
The available information in Mr. Kelly’s claim
file does not support a severity of impairment to
the extent he would be precluded from fulltime sedentary work; actually, the alleged
extent of symptoms and complaints asserted by
Mr. Kelly did not appear consistent with any
physical examination findings or diagnostic
studies. Mr. Kelly’s ability to perform at least
full-time sedentary work is supported by the
independent opinion of four separate physicians.
D.E. 203-2 at 80-90.
As for Kelly’s cardiac problems, Hellwig
referenced the most recent treatment notes that
Reliance retrieved from Dr. Yazmajian. On August 26,
2009, Dr Yasmajian indicated that Kelly had been
exercising regularly with a trainer, experienced
dyspnea only on exertion with humidity, and reported
rare palpitations. Id. The most recent office visit note
from Dr. Yazmajian, dated November 1, 2010, reflected
that Kelly “was doing well and is without new medical
issues” and “[he] has no new cardiac complaints.” Id.
Hellwig noted that Kelly had been uncooperative
with Reliance’s Claims Department:
The Claims Department requested that you
provide the additional information as part of
your assessment to determine whether Mr.
Kelly was unable to perform the material
duties of Any Occupation and was therefore
Totally Disabled as of May 25, 2008, the date the

37a
definition of Total Disability changed. On the
dates of June 5, 2015 and July 22, 2015, the
Claims Department requested you provide the
following information: a completed and signed
Activities of Daily Living Questionnaire; an
executed Authorization for Use in Obtaining
Information; an executed Social Security
Authorization form; evidence of Mr. Kelly’s
wages and earnings for the years 2006 through
2013; copies of all individual or joint tax
returns, W-2s, or 1022s, as well as copies of tax
returns for Kelly Law Offices, LLC from 2006
to the present; a copy of all supporting
documentation of any payments and/or
settlements Mr. Kelly received from The
Penn Mutual Life Insurance Company; and
details concerning any Other Income Benefits
Mr. Kelly received from 2006 to the present.
You never provided any of the requested
information;
furthermore,
the
only
correspondence or information you submitted
was a letter dated September 4, 2015, in which
you demanded payment through the Maximum
Duration of Benefits and did not provide or
address any of the requested documentation. As
a result, the Claims Department moved forward
with the review of Mr. Kelly’s claim based on
the available information in the claim file.
Id. at 86.
Hellwig determined that Kelly was capable of at
least full-time sedentary work. Regarding Kelly’s claim
that Reliance unlawfully offset the SSD benefits,
Hellwig noted that a letter Reliance had sent to Kelly
cited a policy provision that allows for the reduction of

38a
Kelly’s LTD monthly benefit due to his eligibility for
SSD benefits. Id. at 87. That letter “clearly stated that
any written request for review of the decision must be
submitted within 180 days of your receipt of the letter,”
otherwise it would “constitute a failure to exhaust the
administrative remedies available” under ERISA. Id.
Hellwig additionally indicated that Reliance had
referred the claim file to four independent physicians
who all concluded that Kelly was not totally disabled.
Id. Hellwig addressed the July 2014 ALJ opinion, too.
[Reliance] acknowledges that Mr. Kelly has
been awarded Social Security Disability
benefits. Although we have requested from you
on multiple occasions any information which
was submitted to or considered by the Social
Security Administration (“SSA”) in connection
with his claim for SSD benefits, we have
received nothing from you on the matter.
Additionally, you never provided our office an
executed Social Security Authorization form,
which would have allowed us to request
information directly from the SSA, despite
repeated requests to do so. In any event, please
be aware that while that while we consider the
determinations of the SSA or other insurers,
they are not binding on [Reliance’s] decision as
to whether or not Mr. Kelly meets the Policy
definition of Total Disability. A person’s
entitlement to each of these benefits may be
based upon a different set of guidelines, which
may sometimes lead to differing conclusions.
Each benefit provider may also be considering
different medical evidence in the evaluation of a
claim. For example, in Mr. Kelly’s situation,

39a
the SSA may not have the results of the
multiple Peer Reviews, or other medical
information [Reliance] may have developed in
Mr. Kelly’s file. If the SSA were to review this
information, they may reach a similar
conclusion. Please be advised that the receipt
of SSD benefits does not guarantee the receipt
of LTD benefits or vice versa.
Id. at 89.
In September 2016, following Reliance’s denial of
his appeal, Kelly made a letter request that the Court
reopen his case. (D.E. 197.) After a status conference
with Magistrate Judge Waldor, the parties have filed
these cross-motions for summary judgment (D.E. 211,
215, 216), on which the Court held oral argument on
November 29, 2017.
DISCUSSION
Kelly contends that Reliance’s denial of his
administrative appeal was arbitrary and capricious
because it cherry-picked the medical evidence, ignored
the findings of his treating physician Dr. Dearolf, and
did not assign proper weight to the ALJ opinion. He
also maintains that Reliance failed to provide notice of
an adverse benefit determination within 45 days of the
original claim, and that it wrongfully offset SSD
benefits. Reliance opposes on the basis that Kelly failed
to sustain his burden to establish disability under the
terms of the plan, and obstructed the claims process.
For its part, Penn Mutual maintains that it cannot be
held liable under a co-fiduciary theory under ERISA
because a dispute over a claim for LTD benefits cannot

40a
constitute a breach of fiduciary duty under ERISA,
and, in any event, Kelly did not address any of Penn
Mutual’s arguments in his most recent motion (the last
point was conceded at oral argument).
Under the familiar summary judgment standard,
a court “shall grant summary judgment if the movant
shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as
a matter of law.” Fed. R. Civ. P. 56(a).
When, as here, cross-motions for summary
judgment are pending, “the Court must rule on each
party’s motion on an individual and separate basis,
determining, for each side, whether a judgment may be
entered in accordance with the summary judgment
standard.” Marciniak v. Prudential Fin. Ins. Co. of
Am., 184 Fed. Appx. 266, 270 (3d Cir. 2006). In ERISA
cases, the task is relatively straightforward, as the
question presented by both motions is whether or not,
based on the undisputed administrative record, the plan
administrator’s decision was arbitrary and capricious.
Id. Under the arbitrary and capricious standard a court
may only overturn a decision of the plan administrator
if “it is without reason, unsupported by substantial
evidence or erroneous as a matter of law.” Miller v.
Am. Airlines, Inc., 632 F.3d 837, 845 (3d Cir. 2011).
Substantial evidence is “sufficient evidence for a
reasonable person to agree with the decision.” Courson
v. Bert Bell NFL Player Retirement Plan, 214 F.3d
136, 142 (3d Cir. 2000).
The parties do not formally specify the
administrative record for this Court’s review of the
decision not to grant benefits beyond the 24-month
period. Notwithstanding, their briefs discuss the
administrative record already reviewed by the Court in

41a
conjunction with its December 2011 opinion, along with
Kelly’s supplemental certification (with the attached
Dearolf report) submitted in 2011, the Green-Helmer
medical report responding to the supplemental
certification in 2011, a vocational report by Jodi Barach
also responding to the supplemental certification, the
2014 ALJ opinion, the 2015 vocational report by Carol
S. Vroman report which found that Kelly had
“transferrable skills,” and the Kokseng report in 2016.
The Court reviews these materials for purposes of
deciding whether Reliance was arbitrary and capricious
in its decision, and finds that the administrative record
closed on April 21, 2016 with the Hellwig letter decision
denying Kelly’s appeal.
Turning to that decision, it states in relevant
part:
The available information in Mr. Kelly’s claim
file does not support a severity of impairment to
the extent he would be precluded from fulltime sedentary work; actually, the alleged
extent of symptoms and complaints asserted by
Mr. Kelly did not appear consistent with any
physical examination findings or diagnostic
studies. Mr. Kelly’s ability to perform at least
full-time sedentary work is supported by the
independent opinion of four separate physicians.
Initially, Reliance both funded and administered
the plan, which raises the issue of conflict of interest. In
the Third Circuit this “structural” factor is weighed as
part of the overall arbitrary and capricious analysis.
Pinto v. Reliance Standard Life Ins. Co., 214 F.3d 377,
383 (3d Cir. 2000). Another preliminary inquiry is the

42a
“process” mandated by the plan, Post v. Hartford Ins.
Co., 501 F.3d 154, 162 (3d Cir. 2007), and here the plan
language is precise about the burden placed upon an
applicant for LTD benefits. Kelly bears the burden of
establishing that he:
(1) Is Totally Disabled as the result of a Sickness
or Injury covered by the Policy
(2) Is under the regular care of a physician
(3) Has completed the Elimination Period; and
(4) Submits satisfactory proof of Total Disability
to us
D.E. 29-1 at 16.
It is in this context that the Court considers
Kelly’s main arguments: that in making its decision
Reliance overlooked the January 2011 Dearolf letter
report, and that it failed to give proper weight to the
ALJ opinion.
A review of the record as a whole reveals
substantial evidence supporting Reliance’s decision to
deny Kelly’s claim for “any occupation” LTD benefits
despite the conclusion of Dr. Dearolf. Solid support is
found in the reports of four physicians, all of whom
concluded that Kelly was not totally disabled. Kelly’s
failure, whether through refusal or inability, to obtain
additional medical documentation, and the absence of
any clinical examinations or diagnostic tests after June
2006, lend credence to Reliance’s assertion that Kelly
had not met his burden under the plan.
The conclusions in Dr. Dearolf’s 2011 letter
report were made without a new examination, albeit
five years had passed since he had last examined Kelly.
As such, his opinion that Kelly’s symptoms are

43a
permanent and unlikely to improve over time is not
grounded in what a treating doctor who was actually
providing ongoing treatment might be able to offer
about Kelly’s symptoms and prognosis. And the letter
with those conclusions actually is belied by the
improvements to Kelly’s condition that are noted in the
2006 treatment records of the physical therapists and
Dr. Dearolf.
Importantly, it is Kelly’s burden under the plan
to show that he is “under the regular care of a
physician,” thereby demonstrating continued total
disability. In its denial letters, Reliance regularly
informed Kelly that the documentation in his file was
insufficient to support an impairment that would
prevent him from working in “any occupation” after
May 2008, and gave him the opportunity to supplement.
Instead, Kelly has clung to his argument that the
Court’s decision in December 2011 embraced his claim
for “any occupation” disability, even in the face of two
subsequent decisions firmly rejecting his interpretation.
While he is free to disagree with the Court, his failure to
provide supporting material on the “any occupation”
remand seriously undermines his challenge to the
administrative decision. In this regard, it is difficult to
ignore Kelly’s accomplishments in being admitted to the
New Jersey bar and establishing a law practice with his
son during the relevant time period.
Kelly in effect closed down his contributions to
the file on orthopedic issues with his supplemental
certification and Dr. Dearolf’s 2011 reprise of the
findings he made back in 2006. The Court must repeat
what Reliance is banging the drums about: there are
simply no treatment records, diagnostic studies, office
visit notes, or consultation records beyond Kelly’s visit
on June 28, 2006 with Dr. Dearolf. The medical records

44a
from Dr. Dearolf consist of five medical notes spanning
three pages containing observations from Kelly’s
appointments with him and his findings from the 2005
MRI. The choice that Kelly has made to limit his
orthopedic medical records on the accident to those
generated with Dr. Dearolf renders unpersuasive the
“cherry- picking” arguments about the counterweight
reports from the non-examining doctors.
The medical reports obtained by Reliance
support the finding that Kelly had the capacity to
perform at least full-time sedentary work. The
internist Dr. Choi concluded that “there is no evidence
provided that conclusively supports that plaintiff
suffered any injuries other than a potential lumbar
sprain/strain injury.” (D.E. 29-1 at 91.) The orthopedic
surgeon Dr. Green found “no objective evidence for
restrictions or limitations” from an orthopedic
standpoint. (D.E. 103-3 at 13-27.) The cardiologist Dr.
Helmer said that Kelly had “no limitations on sitting,
walking, standing, pushing, conversing, phone use,
computation, or paperwork.” (D.E. 103-3 at 18-19.) It
stretches credulity for the Court to accept Kelly’s
argument that he has actually offered evidence that
contradicts these conclusions—he has merely offered a
contrary conclusion, in the form of a short letter report
from Dr. Dearolf, without objective medical evidence
supporting it post 2006.
In 2016, in connection with Kelly’s administrative
appeal, Reliance took the extra step of having another
physician, Dr. Kokseng, review Kelly’s entire medical
file. She concluded in her report3 that “[b]ased on the
3

Kelly argues in these motions that Reliance improperly relied on
Dr. Kokseng’s report because she was not involved in the earlier
assessment of his claim, and he did not have the opportunity to

45a
enclosed documentation and with a reasonable degree of
medical certainty, since 05/25/08 the claimant has no
physical limitations or restrictions.” (D.E. 216-8 at 6.)
The Court next turns to Kelly’s argument that
Reliance failed to give sufficient weight to the ALJ
opinion. It is well-established that a social security
award in itself does not show that a contradictory
administrator’s decision was arbitrary and capricious,
and that “a plan administrator is not bound by the SSA
decision.” Marciniak v. Prudential Fin. Ins. Co. of
Am., 184 Fed. Appx. 266, 269 (3d Cir. 2006). A plan
administrator and a social security decisionmaker
analyze an application for disability benefits along
differing lines. As noted in Burk v. Broadspire Servs.,
Inc., 342 F. App’x 732, 738 (3d Cir. 2009), “The Social
Security Administration’s determination of ‘disability’
is not binding ... where the determination is governed
by the plan terms rather than statute.”
Markedly, the record before Reliance is devoid of
any reference to the materials upon which the ALJ
relied, but this was not for lack of trying. Reliance
asked Kelly multiple times to provide a social security
authorization form. The only piece of evidence related
review her findings before the appeal was decided. This argument
must fail. The administrative record did not close until April 21,
2016, when Reliance made its final determination on appeal. Kelly
does not cite to authority that would support for a right to review,
rebut, or otherwise respond prior to the administrative decision on
appeal. To the contrary: “Permitting a claimant to receive and
rebut medical opinion reports generated in the course of an
administrative appeal—even when those reports contain no new
factual information and deny benefits on the same basis as the
initial decision—would set up an unnecessary cycle of submission,
review, re-submission, and re-review. This would undoubtedly
prolong the appeal process[.]” Metzger v. Unum Life Ins. Co., 476
F.3d 1161, 1166–67 (10th Cir. 2007).

46a
to his social security application Kelly did furnish—the
ALJ opinion itself—indicates that he can perform other
work in the national economy. The ALJ explicitly held
at the end of his opinion:
Although the vocational expert testified that an
individual with the claimant’s age, education,
work experience and residual functional capacity
could perform other work in the national
economy, the Medical-Vocational Rules direct a
finding of disability.
In the end, the conclusion is inescapable that
Kelly has not met his burden under the terms of the
LTD plan where, “instead of providing quantitative
data or clinical evidence of a disabling condition, [he]
offered…a scattershot series of subjective complaints…
[and] pointed [Reliance Standard] to no objective
corroboration for these subjective claims….” Kao v.
Aetna Life Ins. Co., 647 F. Supp. 2d 397, 421 (D.N.J.
2009) (Irenas, J.).
Kelly advances two other arguments in his
summary judgment papers that lack merit. First, he
maintains that Reliance did not provide a full and fair
review of his January 2011 claim on remand because it
failed to consider a claim for benefits under the “any
occupation” standard. But in its July 21, 2014 opinion,
the Court specifically rejected Kelly’s contentions that
Reliance was flouting its previous orders.
On May 28, 2015, the Court denied Kelly’s motion
for civil contempt and remanded the claim for disability
benefits to Reliance. In making that motion Kelly was
again relying on his position that Reliance was flouting
the Court’s directions in the December 22, 2011 opinion

47a
by not paying “any occupation” disability benefits. And
again the Court disagreed. Kelly raised the same
arguments in a motion for reconsideration, which was
denied. The Court will not change its ruling and rejects
this argument, which is based on the same contention
that the remanded claim back in 2011 embraced “any
occupation” benefits.
Second, Kelly contends that Reliance’s decision
to offset social security benefits against Kelly’s “regular
occupation” disbursement was unlawful because no SSD
benefits were actually remitted to Kelly by the SSA
from May 2006 to May 2008. The Court finds that this
argument fails because Kelly failed to exhaust his
remedies within the administrative process.
“A federal court will generally refuse to consider
claims to enforce the terms of a benefit plan if the
plaintiff has not first exhausted the remedies available
under the plan.” Bennett v. Prudential Ins. Co., 192 F.
App’x 153, 155 (3d Cir. 2006) (citing Weldon v. Kraft,
Inc., 896 F.2d 793, 800 (3d Cir. 1990)). “The exhaustion
requirement is waived, however, where resort to the
plan remedies would be futile.” Bennett, 192 F. App’x
at 155 (citing Berger v. Edgewater Steel Co., 911 F.2d
911, 916 (3d Cir. 1990)).
Reliance’s October 9, 2014 letter to Kelly
identified the benefit amount owed under the terms of
the plan, provided Kelly with an explanation of the
decision, and advised Kelly on his appeal rights. (D.E.
203-2 at 2-5.) Kelly never appealed that determination.
He first raised the issue 16 months later, and has not
adequately shown why an appeal would have been
futile. He may not now pursue this claim in this court.
Turning to Penn Mutual’s motion for summary
judgment, as indicated earlier in this opinion, Kelly has

48a
not opposed it, and conceded as much at oral argument.
He does not mention Penn Mutual at all in his motion
papers, and the motion is deemed unopposed.
Reviewing the record, it appears that the only
actionable conduct on Penn Mutual’s part that Kelly
identified is his allegation that it had provided an
incorrect job description to Reliance in 2007 when it
first began administering Kelly’s LTD claim. Kelly
eventually amended that incorrect job description, and
Reliance has not used it since in its determinations.
Resurrecting a stale argument that has no
relevance to this administrative record, if that is what
Kelly is doing, is flimsy enough. There are also real
problems with Kelly’s theory that Penn Mutual could be
liable as a co-fiduciary under ERISA. As Penn Mutual
points out, this is a lawsuit over a claim for benefits.
The Third Circuit has held that a “claim for breach of
fiduciary duty is actually a claim for benefits where the
resolution of the claim rests upon an interpretation and
application of an ERISA-regulated plan rather than
upon an interpretation and application of ERISA.”
Harrow v. Prudential Insurance Company of America,
279 F.2d 244, 254 (3d Cir. 2002). As is very obvious, the
Court’s review of Reliance’s claim determination must
and does rest upon an examination of the plan itself, not
the ERISA statute. Kelly’s breach of fiduciary duty
theory fails, and Penn Mutual’s motion is granted.
For the reasons stated above, Kelly’s motion for
summary judgment will be denied, and the defendants’
motions for summary judgment will be granted. In
making this ruling, the Court has addressed the claims
in counts one and two, which are the ones remaining.
The case remains open for the sole purpose of
adjudicating the application for counsel fees and costs of

49a
suit that was addressed in the order of December 22,
2011 (D.E. 107).
In that order the Court gave Kelly permission to
pursue legal fees from both defendants on his ERISA
claim, while indicating that permission did not
guarantee an award would be made. For purposes of
deciding the application at this pass, the Court will not
entertain fees incurred for legal services rendered after
the parties’ conference with Judge Shwartz in January
2012. Kelly has failed in his repeated attempts,
documented in this lengthy opinion, to tag Reliance as
having failed to adhere to Court orders, and Reliance
has paid benefits consistent with those orders. Kelly’s
claims against Penn Mutual, while apparently having
much to do with the impasse to settlement, relate solely
the information it gave Reliance about his job
description. That happened well before the December
2011 decision. The Court is satisfied that the expense of
the litigation Kelly has pursued since January 2012 falls
outside the period relevant to Kelly’s entitlement for
fees under ERISA.
Additionally, no legal services that may have
been performed by plaintiff Kelly shall be eligible for a
fee award.
The parties shall appear in person before
Magistrate Judge Cathy Waldor promptly for her
directions on the length, content, and timing of their
submissions. Plaintiff Thomas P. Kelly shall attend.
s/ Katharine S. Hayden
Katharine
S.
Hayden,
U.S.D.J.
Dated: December 31, 2017

50a
United States District Court, D. New Jersey.
Thomas P. KELLY, Jr., Plaintiff,
v.
RELIANCE STANDARD LIFE INSURANCE
COMPANY,
and
The Penn Mutual Life Insurance Company,
Defendants.
Civil No. 09–2478 (KSH).
May 28, 2015.

ORDER
Defendant Reliance Standard Life Insurance Company
(“Reliance”) having filed a motion to remand plaintiff
Thomas P. Kelly, Jr.’s claim for insurance benefits [D.E.
179], and Kelly having filed a cross-motion to hold
Reliance in civil contempt [D.E. 184]; and for the
reasons set forth in the opinion filed herewith, IT IS on
this 28th day of May, 2015, ORDERED that Reliance’s
motion to remand [D.E. 179] is GRANTED and Kelly’s
motion to hold Reliance in contempt [D.E. 184] is
DENIED; and it is further ORDERED that Kelly’s
claim for disability benefits is remanded to Reliance for
further proceedings consistent with this decision.
/s/ Katharine S. Hayden
Katharine S. Hayden, U.S.D.J. C

51a
United States District Court, D. New Jersey.
Thomas P. KELLY, Jr., Plaintiff,
v.
RELIANCE STANDARD LIFE INSURANCE
COMPANY,
and
The Penn Mutual Life Insurance Company,
Defendants.
Civil No. 09–2478 (KSH).
Signed May 28, 2015.
Attorneys and Law Firms
Thomas Patrick Kelly, III, Kelly Law Offices
LCC, Mount Laurel, NJ, for Plaintiff.
Louis P. Digiaimo, Mee Sun Choi, Valerie Grace
Kesedar, McElroy, Deutsch, Mulvaney & Carpenter
LLP, Morristown, NJ, Edward Francis Roslak, Saul
Ewing LLP, Newark, NJ, James A. Keller, Caitlin M.
Strauss, Saul Ewing LLP, Joshua Bachrach, Wilson
Elser Moskowitz Edelman & Dicker, LLP,
Philadelphia, PA, for Defendants.
Opinion
KATHARINE S. HAYDEN, District Judge.
Before the Court is defendant Reliance Standard
Life Insurance Company's motion to remand Thomas
Kelly's claim for long-term disability to the plan
administrator and Kelly's cross-motion for civil

52a
contempt sanctions. Central to the Court's resolution of
these motions is a determination as to what has or has
not already been considered by Reliance in its denial of
Kelly's application for benefits—namely, whether
Reliance only determined that Kelly was unable to
perform his own “regular” occupation, or whether it
also found that Kelly was unable to perform “any”
occupation that his education, training and experience
would otherwise allow. For the reasons that follow,
Reliance's motion to remand is granted and Kelly's
cross-motion for civil contempt sanctions is denied.
I. Background1
Following a car accident that took place on
November 7, 2005, Kelly applied for long-term
disability (“LTD”) benefits under a plan sponsored by
his employer, Penn Mutual Life Insurance Company
(“Penn Mutual”). Reliance processed the claim, and
determined in a letter dated October 23, 2006 that Kelly
was capable of performing the duties of his “regular
occupation” and therefore not entitled to benefits under
the policy. After the determination was upheld on final
appeal, Kelly filed suit in this Court against both
Reliance and his employer, Penn Mutual, claiming in
part that Reliance's denial of benefits was arbitrary and
capricious and that Penn Mutual had breached its
fiduciary duties as co-fiduciary of the plan. The Court
concluded on December 14, 2010 that the
administrative record was deficient, that Reliance had
relied on an incorrect definition of Kelly's occupation,
that Penn Mutual provided an incorrect job description,
and that Kelly had not been helpful in providing

53a
information during the claim processing. On that basis,
the Court remanded the claim to Reliance and
permitted Kelly to offer additional information
supporting his claim.
Kelly gave Reliance a supplemental certification
regarding his job description and, for the first time,
claimed that his inability to perform the required duties
of “any occupation [has] been further exacerbated by
the onset and increase of chronic cardiac symptoms.”
(Kelly's SJ Br., Ex. B, Supplemental Cert. ¶ 51)
(emphasis added). The difference between the
modifiers, “regular” as opposed to “any,” is significant.
The “regular occupation” standard asks whether the
claimant is capable of “perform[ing] the substantial and
material duties of [his] regular occupation” and pays
benefits for a period of 24 months. By contrast,
disability benefits under the “any occupation” standard
are due only where the claimant is incapable of
performing the material duties of “any occupation ....
that [his] education, training or experience will
reasonably allow” and are paid to the claimant after
expiration of the first 24 month period.
After remand by this Court, Reliance again
considered Kelly's application and this time made note
of his new claim for “any occupation” benefits—it
referenced Kelly's contention that he purportedly was
“physically unable to work in ‘any occupation that [his]
education, training and experience would otherwise
reasonably allow.” (Kelly Br., Ex. A at 1, hereinafter
“February Letter.”) But in defining “Total Disability”
Reliance referred only to the extent to which Kelly was

54a
capable of “perform[ing] the substantial and material
duties of [his] regular occupation.” Reliance then
concluded that Kelly “fail [ed] to meet the Policy's
definition of ‘Total Disability’ (quoted above), and as
such, no benefits [would be] payable.” (February Letter
at 9.)
Kelly again challenged the denial before this
Court. And in an opinion dated December 22, 2011, the
Court concluded that Reliance “conducted an
inappropriately selective review of the evidence, placed
unreasonable emphasis on the reports of consultants
who never examined Kelly, chose not to use an IME,
and failed to engage in a meaningful analysis of Kelly's
material job duties.” The Court found that, taken
together, this amounted to an arbitrary and capricious
exercise of discretion in violation of ERISA and
concluded that “Kelly [was] entitled to receive the LTD
benefits owed to him under the Plan.”
A dispute then arose about whether the Court
intended for Kelly to receive LTD benefits under the
“regular” or “any” occupation standard. In a letter
dated January 12, 2012, Reliance took the position that
“benefits have been awarded during the ‘own [or
regular] occupation’ period but Mr. Kelly's ongoing
disability under the more stringent ‘any occupation’
standard beyond 24 months must be further
investigated by Reliance Standard.” (Reliance Reply
Br., Ex. B.) Counsel stated further that “[i]t is Mr.
Kelly's position that benefits are to be paid to the
present (for 68 months) pursuant to [the Court's order],
despite the change in definition.” (Reliance Reply Br.,

55a
Ex. B.) According to counsel, this dispute ultimately
precipitated the collapse of a proposed settlement of all
claims, previously agreed to in principle on January 27,
2012. On September 26, 2014, approximately three
months after the Court denied Kelly's motion to enforce
the proposed settlement, Reliance paid to Kelly an
amount equal to 24 months of benefits with pre-and
post-judgment interest. (Reliance Reply Br., Ex. C
(“Enclosed is Reliance Standard's check in the amount
of $180,127.53 representing twenty-four (24) months of
benefits with pre-judgment and post-judgment
interest.”)) The transmittal letter described how those
benefits were calculated and advised Kelly of his right
to appeal the decision. On November 7, 2014, Reliance
filed the present motion to remand Kelly's claim for
benefits for further consideration [D.E. 179]. Kelly filed
his opposition and moved for civil contempt sanctions
[D.E. 184] on December 6, 2014, contending that
Reliance has failed to pay the benefits he believes were
ordered by this Court's December 22, 2011 order.
II. Analysis
Kelly takes the position that: (1) the Court has
already, in its December 22, 2011 decision, determined
he was entitled to LTD benefits under the “any
occupation” standard; and (2) the amount of benefits
already paid is insufficient even under the “regular
occupation” definition. Reliance now moves to remand
the “any occupation” issue for its review, arguing that
Kelly failed to exhaust his administrative remedies.
The Court agrees.

56a
Reliance noted in the February Letter that
Kelly claimed entitlement to “any occupation” benefits
but, quite clearly, found only that he was not “Totally
Disabled” as defined therein—i.e. that he was not
incapable of “perform[ing] the substantial and material
duties of [his] regular occupation.” The Court
subsequently considered this decision and found it to be
arbitrary and capricious, but did not—as Kelly
suggests—rule that Kelly was entitled to LTD benefits
under the “any occupation” standard. The Court held
only that Kelly was “entitled to receive the LTD
benefits owed to him under the Plan.” Read together
with the remainder of the Court's opinion and the
February Letter, it is beyond dispute that the Court's
holding extended only to those claims Reliance had
already considered—namely, Kelly's claim for benefits
on account of his inability to perform the duties of his
regular occupation.
Even if the Court had wished to go further and
opine on Kelly's claim for benefits under the “any
occupation” standard, it would have been powerless to
do so. In Pakovich v. Broadspire Services, Inc., 535
F.3d 601 (7th Cir.2008), the district court considered
the defendant insurer's denial of Pakovich's claim for
benefits under the “own occupation” standard. The
district court found that the insurer's determination
was arbitrary and capricious, and then went on to
conclude that Pakovich was not entitled to benefits
under the “any occupation” standard. The Seventh
Circuit vacated this latter ruling on appeal and found
that, because the insurer “did not issue any decision on
Pakovich's eligibility for disability benefits under the

57a
‘any occupation’ standard,” the district court was left
“with nothing to review.” Id. at 607. And although the
district court “was able to piece together its conclusion
that Pakovich was physically capable, and had the
‘training, education and experience’ to perform
sedentary work, there was no decision by the Plan
Administrator for the Court to review” and the record
therefore was “not fully developed on this issue.” The
Seventh Circuit then “order[ed] that the district court
remand the case to the Plan Administrator to
determine whether Pakovich was eligible for disability
benefits beyond [24 months] under the Plan's ‘any
occupation’ standard.” Id. at 607.
As in Pakovich, Reliance considered only the
“regular” or “own occupation” standard of disability,
and never determined whether Kelly was entitled to
LTD benefits beyond 24 months under the “any
occupation” standard. No decision of this Court could
have changed that. And because “[Reliance] has not
issued a decision on a claim for benefits that is now
before the [Court], the matter must be sent back to
[Reliance] to address the issue in the first
instance.” Id. at 607. Reliance's motion for remand is
therefore granted.
Kelly's cross-motion for civil contempt sanctions
against Reliance is denied. To succeed, Kelly must
demonstrate—by clear and convincing evidence—that
(1) a valid court order existed; (2) defendant had
knowledge of the order; and (3) defendant disobeyed
the order. The Third Circuit has described this showing
as a “heavy burden,” and cautioned courts to hesitate in

58a
awarding civil contempt sanctions “when there is
ground to doubt the wrongfulness of the
conduct.” Quinter v. Volkswagen of Am., 676 F.2d 969,
974 (3d Cir.1982).
The basis for Kelly's motion is Reliance's alleged
failure to comply with the December 22, 2011 opinion
and order of the Court, which found Kelly was “entitled
to receive the LTD benefits owed to him under the
Plan.” However, Kelly fails entirely to show how
Reliance disobeyed any aspect of that decision and
order. To the extent Kelly claims Reliance failed to
comply in that it refused to pay LTD benefits beyond
24 months under the “any occupation” standard, the
Court already has ruled herein that the December 22,
2011 order did not encompass such relief. And to the
extent that Kelly relies on Reliance's alleged failure to
pay the correct amount owed under the “regular
occupation” standard, he provides the Court with no
evidentiary basis for a finding of civil contempt. Kelly
argues only that “[w]hen it finally did pay some of the
benefits owed ..., [Reliance] miscalculated the amount
due for the specified benefit period .... and applied
incorrect rates for pre and post-judgment interest that
do not comply with the Court Rules.” (Kelly Br. at 5, n.
1) This falls well short of meeting Kelly's “heavy
burden” here. Kelly's failure to support this contention
with competent, clear and convincing evidence—or any
argument outside of a footnote—is fatal to his motion
for civil contempt.
Conclusion

59a
For the foregoing reasons, defendant Reliance's
motion to remand is granted and Kelly's cross-motion
for civil contempt sanctions is denied. An appropriate
order will be entered.
Footnotes
1This case has a long history before the Court. A full
recitation of the facts underlying Kelly's claim for
coverage appears in the written opinion dated
December 22, 2011 [D.E. 106], which granted Kelly's
cross-motion for summary judgment.

60a
NOT FOR PUBLICATION
United States District Court, D. New Jersey.
Thomas P. KELLY, Plaintiff,
v.
RELIANCE STANDARD LIFE INSURANCE
COMPANY, and The Penn Mutual Life Insurance
Company, Defendants.
Civ. Action No. 09–2478 (KSH).
Dec. 22, 2011.
ORDER
Katharine S. Hayden, U.S.D.J.
The Court having made rulings in its written opinion of
today’s date on plaintiff Thomas P. Kelly’s second
motion for summary judgment [D.E.101], and
defendant
Reliance
Standard
Life
Insurance
Company's (“Reliance”) cross-motion for summary
judgment [D.E. 102]; and good cause appearing,
IT IS on this 21st day of December, 2011,
ORDERED that Kelly’s motion for summary judgment
is GRANTED with respect to Count I of the Amended
Complaint and DENIED with respect to Count II, and
it is further
ORDERED that Reliance’s cross-motion for summary
judgment is DENIED; it is further

61a
ORDERED that defendant Penn Mutual Life Ins. Co.
shall immediately provide all benefits consistent with
the rulings set forth in the Court’s written opinion
granting Kelly’s motion for summary judgment; and it
is further
ORDRERED
that Kelly’s claim is hereby
REMANDED
REMA NDED to defendant Reliance for continued
administration and payment of benefits, consistent with
the terms of this Order and the Court’s written opinion;
and it is further
ORDERED that Kelly is granted leave to file a motion
to recover reasonable costs of suit and attorney fees, as
provided for by 29 U.S.C. § 1132, et seq., by January
20th, 2012 and defendants must file any opposition by
February 7th, 2012. No reply will be entertained, and
this does not constitute a ruling that fees will in fact be
awarded; and it is further
ORDERED that there shall be a settlement conference
before Magistrate Judge Shwartz on January 6, 2012 at
9:30 a.m. in an effort to resolve the remaining claims
against defendant Penn Mutual. Trial counsel and
clients with full settlement authority are required to
appear
inperson
at
the
conference.
/s/ Katharine S. Hayden
Katharine S. Hayden, U.S.D.J

62a
NOT FOR PUBLICATION
United States District Court, D. New Jersey.
Thomas P. KELLY, Plaintiff,
v.
RELIANCE STANDARD LIFE INSURANCE
COMPANY, and The Penn Mutual Life Insurance
Company, Defendants.
Civ. Action No. 09–2478 (KSH).
Dec. 22, 2011.
Attorneys and Law Firms
Thomas Patrick Kelly, III, Law Office of Thomas P.
Kelly, Mount Laurel, NJ, for Plaintiff.
Joshua Bachrach, Wilson Elser Moskowitz Edelman &
Dicker,
L.L.P.,
Philadelphia,
PA, Louis
P.
Digiaimo, Mee Sun Choi, McElroy, Deutsch, Mulvaney
& Carpenter L.L.P., Morristown, NJ, for Defendants.
OPINION
KATHARINE S. HAYDEN, District Judge.
This case comes before the court on crossmotions for summary judgment filed by plaintiff,
Thomas P. Kelly and defendant Reliance Standard Life
Insurance Company (“Reliance”). Earlier, in addressing
dispositive motions brought by the parties, the Court
remanded to the Reliance Plan Administrator for a “full
and fair review” of Kelly's claim for long-term disability
(“LTD”) benefits. The matter has been re-opened

63a
because Reliance again denied Kelly's claim for
benefits, and Kelly has appealed the decision to this
Court.
The Court must now determine whether
Reliance's denial of LTD benefits on remand was an
abuse of discretion under the terms of the plan.
I. Factual Background
In November of 2005, Kelly was employed as a
“Managing Director/Advanced Planning/Compliance
Officer” at the Edison, New Jersey office of Penn
Mutual Life Insurance Co. (“Penn Mutual”). (Pl's Br.,
Ex. B, Supplemental Cert., ¶ 3.) In this “multiple
function position,” Kelly had a number of
responsibilities, including coordinating and supervising
recruiting, running annual compliance meetings and the
quarterly supervisor program, coordinating and
monitoring joint work among associates, conducting
continuing education classes, overseeing trading
operations for compliance purposes, and monitoring
new business for suitability. (Id. at Ex. B, sub-Ex. A.)
Kelly was also responsible for conducting yearly
Private Office Visits (“POVs”) for every agent under
the Edison agency's supervisory jurisdiction. (Id. at Ex.
B, Supplemental Cert., ¶ 18–20.) In addition, Kelly
supervised the “HTK department” and interacted with
the “HTK compliance department on all issues
concerning the agency.” (Id. at Ex. B, sub-Ex. A.) As
explained by Kelly in his certification, HTK was made
up of the “non-housed registered representatives of
broker-dealer Horner Townsend and Kent” located
throughout New Jersey, whom Kelly helped to manage,

64a
train and supervise. (Pl's Br., Ex. B, Supplemental
Cert., ¶ 15.) One of Kelly's tasks was to complete a
yearly visit to “every HTK Producer of the Edison
agency who did not conduct business from an NASD
registered branch office.” (Id. at ¶ 23.) To facilitate
Kelly's required travel, Penn Mutual provided him with
full lease reimbursement for his car. (Id. at ¶ 10.)
Though the parties dispute the degree to which Kelly
was required to travel for his job, both agree that there
was a requirement that he travel at least 10% of the
time. (Id.)
On Monday November 7, 2005, Kelly was injured
in an automobile accident which “exacerbated
existing spinal cord injuries” and prevented him from
“being able to perform the duties of [his] current
occupation on even a part time basis.” (Id. at ¶ 46.)
Previously, Kelly's back had been injured in a 1993
snowmobile
accident
in
which
he
suffered
a compression fracture of his spine at T12, degeneration
of discs T12–L1 and T11–12, and a posterior spur at the
T11–12 interspace with a gibbous deformity. (AR166;
Pl's Br., Ex. B, sub-Ex. H.) This resulted in a hospital
stay, and Kelly later returned to work at his prior place
of employment on partial disability. (AR166.) Kelly told
his agency manager at Penn Mutual about his residual
disability from the 1993 accident at the time he was
employed by Penn Mutual. (Pl's Br., Ex. B,
Supplemental Cert., ¶ 45.)
Kelly's doctor, Dr. Dearolf, concluded that the
November 7, 2005 car accident aggravated the prior
injuries and resulted in an additional “left side disc

65a
herniation at L5–S1.” (Pl's Br., Ex. B, sub-Ex. H.) Kelly
suffered “radicular symptoms along with limited motion
in his lumbar and thoracic spine, lumbar sprain and
strain, lumbar radiculopathy and degenerative joint
disease in his back.” (Id.) Dr. Dearolf instructed Kelly
“not to perform any work of any kind,” and prescribed
steroid injections and physical therapy. (Amended
Compl. ¶ 24.)
At the time of the accident, Kelly was a
participant in Penn Mutual's long-term employee
disability plan. (Pl's Br. at 4.) Defendant Reliance, the
plan administrator, had the discretionary authority to
determine eligibility for plan benefits and was also
responsible for making benefit payments to eligible
participants. (Id.) The Reliance plan entitled a “Totally
Disabled” participant to receive a monthly benefit of
66–2/3% of his Covered Monthly Earnings after 180
days of total disability (the “Elimination Period”) until
the age of 66. (Amended Compl. ¶ 51.) In February of
2006, Penn Mutual's Vice President wrote to Kelly
about whether Kelly intended to submit a claim for
LTD benefits. (Id. at ¶ 49.) Kelly timely notified Penn
Mutual of his intent to file a claim and completed the
necessary forms by May of 2006. (Id. at ¶¶ 52–53, 56.)
The forms were first sent to the Penn Mutual claims
department. (Id. at ¶ 55.) It was Penn Mutual's
obligation to forward Kelly's claim for benefits along
with accurate supporting documentation, such as a job
description, to Reliance. (Id. at ¶ 61–62.) However, as
this Court concluded in the prior summary judgment
proceedings, Penn Mutual failed to provide Reliance
with Kelly's correct job title or an accurate list of his

66a
job duties. (Id. at ¶¶ 77–79; Tr. 9:20–10:16 Dec. 14,
2010.)
In an October 23, 2006 letter Reliance denied
Kelly's claim for LTD benefits. (Amended Compl. ¶ 95.)
The letter included a list of criteria Reliance had used
to determine that Kelly was purportedly capable of
performing the duties of his “regular occupation.” In
pertinent part the letter stated:
Please be aware that your own regular
occupation is not your job with a specific
employer, it is not your job in a particular work
environment, nor is it your specialty in a
particular occupation field. In evaluating your
eligibility for benefits, we must evaluate your
inability to perform your own regular occupation
as it is performed in a typical work setting for
any employer in the general economy.
...
While you may believe that your job required a
greater
level
of
physical
exertion,
your occupation is classified as sedentary by the
United
States
Department
of
Labor's, Dictionary
of
Occupational
Titles (“DOT”). Your claim for benefits has been
evaluated based on your ability to perform
a sedentary occupation.
(AR121–22.) Kelly timely appealed the denial of
benefits. (Amended Compl. ¶ 119.) On March 12, 2007,
Reliance informed Kelly that it upheld its denial on
appeal. (Id. at ¶ 136.)

67a
As a result, Kelly filed suit in this Court against
both Reliance and Penn Mutual claiming that Reliance's
denial of benefits was arbitrary and capricious and that
Penn Mutual had breached its fiduciary duties as a cofiduciary of the plan. Kelly's complaint included RICO
claims against both defendants, which were later
dismissed on defendants' motions to dismiss. In
addition, the complaint contained a claim alleging a
violation of the Family and Medical Leave Act on the
part of Penn Mutual, which was dismissed by a
stipulation. The remaining claims alleged that the
actions of Reliance and Penn Mutual violated ERISA.
Kelly and Reliance filed cross-motions for
summary judgment which were argued on December
14, 2010. The Court concluded that the administrative
record was deficient, that Reliance had relied on an
incorrect definition of Kelly's occupation (a definition
which the Third Circuit had already concluded was
improper), that Penn Mutual provided an incorrect job
description, and that Kelly had not been helpful in
providing information during the claim processing. (Tr.
4:1–5:15; 7:15–8:25; 9:20–10:1 Dec. 14, 2010.) As a result,
the Court ordered a remand to the Plan Administrator
and directed that Reliance should “make a decision on
the merits.” (Id. at 13:3–4.) Kelly was permitted to
submit additional evidence to more fully develop the
record. (Id. at 13:18–25.)
Kelly submitted a supplemental certification
which included a detailed description of his job
responsibilities, a copy of the correct Penn Mutual job
description for his position, and forms indicating other

68a
duties delegated to him. (Pl's Br., Ex. B.) Kelly included
a follow-up letter from his doctor and MRI scans of his
back. (Id.) He also claimed for the first time that his
inability to perform the required duties “of any
occupation have been further exacerbated by the onset
and increase of chronic cardiac symptoms.” (Id. at Ex.
B, Supplemental Cert., ¶ 51.)
On February 18, 2011, Reliance rendered its
remand decision, again denying Kelly LTD benefits.
(Id. Ex. C.) The remand decision was based on the
reports of two independent consultants who completed
paper reviews of Kelly's claim file-Dr. Robert Green, an
orthopedic surgeon and Dr. Gregory Helmer, a
cardiology specialist-as well as a report by Jody Barach,
the in-house Vocational Specialist, and a letter from
Kelly's former supervisor, Frank DePaola, who
provided a critique of Kelly's description of his job
duties. (Id.) The denial letter reiterated the policy
language, noting that disability benefits will be paid
only where a claimant demonstrates total disability for
the Elimination Period. (Pl's Br. Ex. C.) “Elimination
period” is defined as “180 consecutive days of Total
Disability.” (Id.) And “Total Disability” is defined as an
inability to “perform the substantial and material duties
of your regular occupation.” (Id.) The Elimination
Period for Kelly's claim was determined to run from
November 26, 2005 to May 25, 2006.1 (Id.) The letter
noted that both Dr. Green and Dr. Helmer “opined that
no restrictions and limitations [on Kelly's ability to
work] are supported through the records for either
condition from the date of disability through the end of
the 180–day Elimination period.” (Id.) Specifically, Dr.

69a
Green concluded that “there was not sufficient
objective information to determine why he was having
this discomfort,” and thus there was “insufficient
evidence to support that there would be any
restrictions or limitations during the mentioned
timeframe.” (Id.)
The denial letter further concluded that while
Kelly's certification “suggests a job that requires a
much greater level of exertion and more extensive
travel than would be expected for a generally
sedentary-type office job,” the letter from Kelly's
supervisor indicated that Kelly “grossly exaggerate[d]
the level of physical activity involved in [his] job at
PML as well as the travel duties.” (Id.) The denial
letter relied on Penn Mutual HR Personnel's May 31,
2006 form, which indicated that Kelly's position
“required frequent sitting and only occasional standing
and walking with no lift or carry.” (Id.) As a result,
Reliance denied the claim for benefits because neither
of the specialists' opinions supported “restrictions or
limitations at or following the date of disability,” and
neither concluded that Kelly's ability to travel was
limited. (Id.)
Kelly appealed the remand decision to this Court
and is seeking summary judgment on the grounds that
the denial of benefits was arbitrary and capricious.
Reliance has cross-moved for summary judgment in its
favor.
II. Standard of Review
A. Motion for Summary Judgment

70a
Summary judgment may be granted when there
is no genuine issue as to any material fact and [ ] the
moving party is entitled to a judgment as a matter of
law.” Fed.R.Civ.P. 56(c). The role of the court is not to
“weigh the evidence and determine the truth of the
matter but to determine whether there is a genuine
issue for trial.” Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 249, 106 S.Ct. 2505, 91 L.Ed.2d 202 (1986). A
factual dispute is genuine if a reasonable jury could find
in favor of the nonmoving party and it is material only if
it bears on an essential element of the plaintiff's
claim. Fakete v. Aetna, Inc., 308 F.3d 335, 337 (3d
Cir.2002). When deciding a summary judgment motion,
a court must view the record and draw all inferences in
a light most favorable to the opposing party. Knopick v.
Connelly, 639 F.3d 600, 606 (3d Cir.2011). “This
standard does not change when the issue is presented
in the context of cross-motions for summary
judgment.” Appelmans v. City of Phila., 826 F.2d 214,
216 (3d Cir.1987).
B. Standard of Review
Determination Under ERISA

for

Administrator's

When a benefit plan vests the claim
administrator with discretion to make the claim
determination, “its interpretations of plan language and
benefit determinations are generally subject to an
‘abuse of discretion’ or ‘arbitrary and capricious'
standard of review.” Schwarzwaelder v. Merrill Lynch
&
Co.,
Inc., 606
F.Supp.2d.
546,
557
(W.D.Pa.2009) (citing Firestone Tire & Rubber Co. v.
Bruch, 489 U.S. 101, 115, 109 S.Ct. 948, 103 L.Ed.2d 80

71a
(1989)). “In the ERISA context, the arbitrary and
capricious and abuse of discretion standards of review
are essentially identical.” Miller v. Am. Airlines,
Inc., 632 F.3d 837, 845 n. 2 (3d Cir.2011). Both of these
phrases are understood to require the Court to uphold
the Administrator's decision “unless an underlying
interpretation
or
benefit
determination
was
unreasonable, irrational, or contrary to the language of
the plan.” Schwarzwaelder, 606 F.Supp.2d. at 557. The
court's assessment involves evaluating “the quality and
quantity of the medical evidence and the opinions on
both sides of the issues. Otherwise, courts would be
rendered to nothing more than rubber stamps.” Glenn
v. MetLife, 461 F.3d 660, 674 (6th Cir.2006), aff'd
by Metropolitan Life Ins. Co. v. Glenn, 554 U.S. 105,
128 S.Ct. 2343, 171 L.Ed.2d 299 (2008). The burden is on
Kelly to demonstrate that Reliance's denial of benefits
was arbitrary and capricious. Schwarzwaelder,606
F.Supp.2d.
at
558 (citing Moskalski
v.
Bayer
Corp., 2008 WL 2096892 at *4 (W.D.Pa. May 16, 2008)).
Because “benefits determinations arise in many
different contexts and circumstances, ... the factors to
be considered [in reviewing a plan administrator's
exercise of discretion] will be varied and casespecific.” Estate of Schwing v. Lilly Health Plan, 562
F.3d 522, 526 (3d Cir.2009) (internal quotations
omitted). When, as here, the ERISA plan administrator
is responsible for both determining eligibility for
benefits and paying the benefits awarded, an inherent
conflict of interest arises. Glenn, 554 U.S. at 114. The
Supreme Court has directed that this conflict of
interest be viewed as one of the several factors

72a
considered in evaluating whether the administrator has
abused its discretion. Id. at 117.
The focus of review is the “plan administrator's
final, post-appeal decision.” Funk v. CIGNA Group
Ins., 648 F.3d 182, 191 n. 11 (3d Cir.2011)(citing 29
C.F.R.
§§
2560.503–1(h), 2560.503–1(h)(2)(i)(ii), 2560.503–1(h)(2)(iv) & (3)(ii)). The court may in the
course of its review consider prior decisions “as
evidence of the decision-making process that yielded
the final decision, and it may be that questionable
aspects of or inconsistencies among those pre-final
decisions will prove significant in determining whether
a
plan
administrator
abused
its
discretion.” Id. (citing Miller, 632 F.3d at 855–56).
III. Analysis
In evaluating the reasonableness of Reliance's
final, post-appeal determination denying Kelly's claim,
the Court considers Reliance's inherent conflict of
interest, the questionable aspects of its pre-final
decision making process, and, most importantly, three
troubling aspects of Reliance's final review: (1) an
inappropriately selective evaluation of the evidence, (2)
the rejection of self-reported and subjective evidence
while relying on a claimed lack of objective evidence,
and (3) an absence of any substantive evaluation of
material job duties and the claimant's ability to perform
them.
A. Inappropriately
Evidence

Selective

Evaluation

of

the

73a
It is abundantly clear that in making its claim
determination Reliance relied heavily on the paperreview reports of its hired independent consultants, Dr.
Green and Dr. Helmer, while giving less weight to the
treatment records of Kelly's treating physician and
physical therapist. It is true, as noted by Reliance in its
brief, that ERISA plan administrators need not give
special deference to the opinions of treating physicians,
and are under no “discrete burden of explanation when
they credit reliable evidence that conflicts with a
treating physician's evaluation.” Black & Decker
Disability Plan v. Nord, 538 U.S. 822, 834, 123 S.Ct.
1965, 155 L.Ed.2d 1034 (2003). However, an
administrator may not “arbitrarily refuse to credit a
claimant's reliable evidence, including the opinions of
treating physicians.” Id. See also Michaels v. Equitable
Life Assur. Soc., 305 Fed. App'x 896, 906–07 (3d
Cir.2009) (questioning administrators choice to give
determining weight to the conclusions of experts paper
review reports over the conclusions of claimant's
treating physicians); Moskalski, 2008 WL 2096892 at
*9 (“[T]he selective, self-serving use of medical
information is evidence of arbitrary and capricious
conduct.”)
Reported decisions reflect that courts are
troubled where a plan administrator denies a claim by
relying on the paper-review reports of consultants that
oppose
the
conclusions
of
treating
physicians. Schwarzwaelder, 606 F.Supp.2d. at 559. See
e.g., Elms v. Prudential Ins. Co. of Am., 2008 WL
4444269 at *15 (E.D.Pa. Oct.2, 2008) (It is “important to
note that no doctor who has actually treated [plaintiff]

74a
or examined her in person, as opposed to performing a
‘file review’ has found her to be capable ... of performing
work-related tasks.”); Winkler v. Met. Life Ins. Co., 170
Fed. App'x 167 (2d Cir.2006) (vacating denial as
arbitrary where it was based “entirely on the opinions
of three independent consultants who never personally
examined [plaintiff], while discounting the opinions” of
the
treating
physicians.); Glenn, 461
F.3d
at
671 (finding it “perplexing” that the plan administrator
disregarded the opinion of the “only physician to have
personally treated or observed” the claimant); Kinser v.
Plans Admin. Comm. of Citigroup, Inc., 488 F.Supp.2d
1369, 1382–83 (M.D.Ga.2007) (concluding it was
unreasonable for the plan administrator to ignore the
treating physician's “clearly stated and supported
opinion” and rely instead on “a cold record file-review
by a non-examining” consultant.).
A strong emphasis on paper review reports is of
even greater concern where, as in this case, the plan
administrator had the discretion to supplement the
record by requiring an independent medical evaluation
(“IME”) but chose not to. See Schwarzwaelder, 606
F.Supp.2d. at 558–9. The “decision to forgo an IME and
conduct only a paper review, while not rendering a
denial of benefits arbitrary per se, is another factor to
consider in the Court's overall assessment of the
reasonableness of the administrator's decision-making
process.” Id. at 559 (citing Glenn, 461 F.3d at 671). See
also Post v. Hartford Ins. Co., 501 F.3d 154, 166 (3d
Cir.2007), abrogated on other grounds by Metro. Life
Ins. Co. v. Glenn, 554 U.S. 105, 128 S.Ct. 2343, 171
L.Ed.2d 299 (2008) (noting that while a plan

75a
administrator is not required to give treating
physicians' opinions special weight, “courts must still
consider the circumstances that surround an
administrator ordering a paper review.”); Elliot v.
Metro. Life Ins. Co., 473 F.3d 613, 621 (6th
Cir.2006) (“[A] plan's decision to conduct a file-only
review—especially where the right to conduct a
physical examination is specifically reserved in the
plan—may, in some cases, raise questions about the
thoroughness and accuracy of the benefits
determination.” (internal quotations omitted)).
Here, Dr. Green's report, prepared from a paper
file review, discounts Dr. Dearolf's conclusions about
Kelly's condition with little or no explanation and
appears to selectively ignore the treatment information
in the reports of Kelly's physical therapist which detail
his pain and progress. Dr. Green noted that Dr. Dearolf
found “Kelly is unable to sit for any prolonged period of
time or stand for any prolonged period of time which he
felt would make him incapable of performing sedentary
work. He felt the symptoms would be on a permanent
basis unlikely to improve over time.” (Pl's Br., Ex. D.)
As to this, Dr. Green offered what is, at best,
speculation about Dr. Dearolf's medical assessment and
a conclusion that is otherwise unsupported:
I think if Dr. Dearolf had felt that this was a
significant back problem, to prevent this Mr.
Kelly from returning to work in even a
sedentary position, there would have been
further studies to more definitively elucidate the
problem. So based on the records that I have

76a
reviewed and from an orthopedic standpoint
only, it is my opinion that there is no objective
evidence for restrictions or limitations.
(Id.)
Moreover, despite the fact that Dr. Green did
not examine Kelly and admittedly did not review an
MRI report2 and thus did not know “the extent of the
supposed herniation of L5–S1,” he opined that the
proper diagnosis of Kelly's symptoms was less severe
than what Dr. Dearolf had posited. (Id.) “This
information reviewed sounds to me like a lumbar
sprain of mild degenerative, previously somewhat
compromised spine.” (Id. (emphasis added) .) Dr.
Green's report provides no medical basis for coming to
this conclusion.
Further, Dr. Green discounts the records of
Kelly's visits to Dr. Dearolf by noting “most of the
complaints and findings reported were subjective in
nature.” In response to Penn Mutual's request that he
evaluate whether Kelly's condition would have resulted
in restrictions or limitations during the Elimination
Period, Dr. Green simply noted that although there are
records of Kelly complaining of pain, “there was not
sufficient objective information to determine why he
was having this discomfort” and thus “there is
insufficient evidence to support that there would be any
restrictions or limitations during the above mentioned
timeframe.” (Id.)
Similarly, Dr. Green only mentioned the
“significant notes from the [physical] therapist” briefly,

77a
observing that “at the conclusion of each visit, the
therapist stated the claimant tolerated the procedure
well and was gradually showing improvement.” (Id.)
Dr. Green did note that in the last physical therapy
evaluation in the record, dated June 15, 2006, “the
therapist mentioned that claimant still had a significant
pain level.” But Dr. Green's report does not reference
the portion of that report in which the therapist noted
Kelly still had
functional difficulties with bathing, bending,
reaching, standing, work activities, riding in a
car, climbing stairs, sitting and standing for
prolonged periods of more than 15 minutes. He
can sit for 30–40 minutes and walk for about 5–10
minutes. Functionally, he notes overall fatigue
and diminished attention secondary to fatigue
and pain. He also has difficulty driving.... He
remains quite frustrated with the overall impact
on function that pain is causing and difficultly
returning to work.
(AR139–40.) This report was written almost a month
after the conclusion of the Elimination Period,
demonstrating that Kelly suffered from severe pain and
had functional difficulties through the end of the
relevant period, which provides evidence of restrictions
or limitations during the Elimination Period.
In denying Kelly's claim, Reliance relied on Dr.
Green's report and failed to give any independent
weight to Dr. Dearolf's conclusions or the physical
therapy records. (Id. at Ex. C.) In fact, aside from
quoting Dr. Green's report discounting Dr. Dearolf's

78a
medical opinion, Dr. Dearolf's findings and conclusions
about Kelly's medical condition as Kelly's treating
physician are not mentioned in the denial letter at all.
(Id.) The problematical reliance on Dr. Green's opinions
is clearly evident where the denial letter concludes its
evaluation of Kelly's medical condition by stating:
Both specialists therefore opined that no
restrictions or limitations are supported through
the records for either condition from the date of
disability through the end of the 180–day
Elimination Period. What's more, as mentioned
above, Dr. Green felt that a lack of follow-up
testing ordered by Dr. Dearolf appears
inconsistent with your self-reports of the
severity of your pain.
(Id.) Reliance appears to have disregarded the medical
opinion of the only doctor that actually treated Kelly
and ignored the reports of his physical therapist which
further elaborated on his condition, and instead relied
solely on Dr. Green's conclusion that there was a “lack
of objective evidence for restrictions or limitations.” As
indicated, Reliance also chose to forgo an IME.
This is significant because, while it is acceptable
for the administrator to credit the contrary evidence of
a non-treating physician, where a non-treating
physician's opinion simply cites to an absence of
information it does not serve to refute the treating
physician's conclusions, and in and of itself is not a
reasonable
explanation
for
denying
benefits. See Mishler v. Met. Life Ins. Co., 2007 WL
518875 at *9 (E.D.Mich. Feb.15, 2007). Courts have

79a
noted “the particular appropriateness and helpfulness
of an IME in cases in which the claim involves
subjective
complaints.” Schwarzwaelder, 606
F.Supp.2d. at 560. (citing Klinger v. Verizon Comm.,
Inc., 2007 WL 853833 at *3 (E.D.Pa. Mar.14,
2007)(noting that a claim administrator who requests an
IME “avoid[s] the uncomfortable argument ... that the
administrator reasonably gave greater weight to the
opinions of physicians who have not physically
examined the plaintiff than to those physicians who
did.”); Adams v. Metro. Life Ins. Co., 549 F.Supp.2d
775, 790 (M.D.La.2007) (where a “case involves
subjective accounts ... the fact that only a file review
was conducted is relevant.”). Because Reliance (1)
substantially relied on Dr. Green's paper review, which
discounted and selectively ignored much of the
evidence of Kelly's ailments, (2) failed to request an
IME, and (3) gave no independent weight to the opinion
of the only physician that actually treated Kelly, the
Court concludes its exercise of discretion in deciding
this claim was arbitrary and capricious.
B. Unreasonable Rejection of Self–Reported and
Subjective Evidence
Courts have also found denials arbitrary where
the decision is based largely on the rejection of the
claimant's self-reported symptoms and the treating
physician's conclusions about those symptoms, when no
reasonable basis for rejecting such observations is
identified. See, e.g., Schwarzwaelder, 606 F.Supp.2d. at
561–62. A claimant's subjective accounts cannot be
wholly dismissed, particularly where, as here, “the plan

80a
itself does not restrict the type of evidence that may be
used to demonstrate total disability.”3 Glenn, 461 F.3d
at 672. Courts have also concluded that a claimant's
account of pain cannot be ignored simply because it can
be characterized as “subjective.” See Audino v.
Raytheon Co. Short Term Disability Plan, 129 Fed.
App'x 882, 885 (5th Cir.2005). In a factually similar case
involving a claimant with back problems, one court
concluded
The defendants are not free to ignore the
plaintiff's chronic and severe pain under the
apparent theory that MRIs or EMGs must
demonstrate some structural deformity for a
person to be disabled because of back pain.
Unfortunately for all parties involved, back pain,
even severe pain, is not so simple.
Gellerman v. Jefferson Pilot Financial Ins. Co., 376
F.Supp.2d 724, 734, 376 n. 9 (S.D.Tex.2005).
Here, Dr. Green's report generally ignored
Kelly's complaints of pain noted in the physical therapy
records, and found that “most of the complaints and
findings reported” in Dr. Dearolf's treatment notes
“were subjective in nature.” (Pl's Br. at Ex. D.) Dr.
Green's report further concludes that because “there
was no documentation of any other studies
recommended such as an electromyography, functional
capacity
evaluation,
repeat
MRI
with
possible discogram, or any other studies that would
help elucidate the problem,” there was “no objective
evidence for restrictions or limitations.” (Id.) He also
stated that he felt Dr. Dearolf would have requested or

81a
completed “further studies to more definitely elucidate
the problem” if it was actually as serious as Kelly
suggested. (Id.)
Reliance accepted Dr. Green's conclusion that
there was “no objective evidence of limitations or
restrictions” in denying Kelly's claim. The
determination that objective evidence was lacking
appears to have been influenced by the fact that Dr.
Dearolf did not complete more tests to evaluate Kelly's
condition. Indeed, Reliance reiterated in the denial
letter that this was one of the reasons for denying the
claim. But the plan does not explicitly limit the
evidence of disability to “objective evidence.”
Reliance's decision to accept the conclusions of one
physician's paper review, and to discount Kelly's
account of his pain which is supported by the
observations of the treating physician and physical
therapist, further demonstrates that its exercise of
discretion in deciding Kelly's claim was arbitrary and
capricious.
C. Absence of any Substantive Evaluation of Material
Job Duties
Under the Reliance benefit plan, “Total
Disability” is defined as an inability to “perform the
substantial and material duties of your regular
occupation.” (Pl's Br. Ex. C.) In denying the parties
first cross-motions for summary judgment and ordering
a remand, the Court noted that Reliance had denied
Kelly's claim by (1) relying on an incorrect job
description from Penn Mutual, and (2) improperly
defining “regular occupation” generally as opposed to

82a
taking into account the actual job duties performed, a
practice the Third Circuit expressly rejected in Lasser
v. Reliance Standard life Ins. Co., 344 F.3d 381, 387 (3d
Cir.2003). (Tr. 9:20–24, Dec. 14, 2010.) By permitting
Kelly to supplement the administrative record on
remand with correct information related to his job
responsibilities. The Court pointed out that “now we
have the golden opportunity with the blessing of the
district court to do it right.” (Id. at 14:14–15.)
Kelly submitted a 67 paragraph supplemental
certification detailing his job responsibilities and
injuries and attached nine Exhibits, including the
correct Penn Mutual Job Description from his
personnel file, as well as numerous delegation forms
from his supervisor detailing other responsibilities that
had been delegated to him. (Pl's Br. Ex B.) Reliance
provided this information to Kelly's supervisor at Penn
Mutual, Frank DePaola, who responded with a three
page letter critique. The letter essentially noted that
the job description and delegation forms were accurate
but that Kelly, as a supervisor himself, could choose to
delegate many of the tasks he discussed and that Kelly
traveled approximately 10% of the time, but never as
much as 45% of the time. (Pl's Br. Ex. E.) This
information, along with the reports of Dr. Green and
Dr. Helmer, were provided to Reliance's Vocational
Specialist for review.
The Vocational Specialist submitted a two page
review. The first page is almost completely filled with a
copied bulleted list of the job responsibilities for Kelly's
Managing Director/Advanced Planning/Compliance

83a
Officer position, and half of the second page consists of
copied portions of Dr. Green's and Dr. Helmer's paper
review reports. (Def's Br. Ex. D.) Beyond the copied
portions, the report offers only conclusory remarks and
refers to Kelly's position by the wrong title. (Id.) It
concludes, without any elaboration, that Kelly was
required to travel only 10% of the time, had the ability
to delegate job duties, “and in light of the medical
information referenced, Mr. Kelly would be capable of
performing the material duties of a Managing Agent at
Penn Mutual Life Insurance Company.” (Id.)
When evaluating whether Kelly's medical
condition precluded him from performing the material
duties of his job, Reliance relied heavily on the
submission of the Vocational Specialist. (Pl's Br. Ex. C.)
Neither the Vocational Specialist nor Reliance
determined which duties were material duties of Kelly's
job, which duties could be delegated, what degree of
physical exertion was required to complete the material
duties and whether Kelly could, during the Elimination
Period, complete those tasks. In the denial letter,
Reliance also uses the DePaola letter to discredit
Kelly's description of the physical requirements of his
job responsibilities, observing that based on DePaola's
information, “many of the statements [Kelly] made in
[his] affidavit concerning [his] job requirements grossly
exaggerate the level of physical activity involved in
[his] job at PML as well as travel duties.” (Id.)
What actually is “grossly exaggerated” is
Reliance's characterization of Kelly's certification.
DePaola's letter states that many of the duties Kelly

84a
was required to perform were duties he had the option
to delegate, and that Kelly from time to time attended
out of office meetings he was not required to attend.
(Pl's Br. Ex. E.) Reliance inflates DePaola's comments
to a broadside attack on Kelly's supplemental
certification. But the fact that Kelly had the option to
delegate certain job responsibilities he was actively
performing prior to the car accident does not mean that
by explaining those duties Kelly was exaggerating the
requirements of his job in his certification. Moreover,
in Lasser, the Third Circuit expressly held that the
assessment of a claimant's inability to “perform the
material duties of his/her regular occupation” requires
consideration of the “usual work that the [claimant] is
actually performing immediately before the onset of
the disability.” 344 F.3d at 387 (emphasis added).
The apparent wholesale rejection of Kelly's
description of his job duties was unreasonable and led
to the additional unreasonable failure to countenance
the existence of any restrictions or limitations during
the Elimination Period. In light of Dr. Dearolf's
conclusion that Kelly was unable to perform nonsedentary and sedentary work, and the physical
therapist's detailed notes about Kelly's impaired
functional ability, it is surprising that neither Dr.
Green's report nor Reliance's ultimate denial of benefits
suggest that Kelly's condition warranted any work
place restrictions or limitations. Dr. Green's report
concluded there was no objective evidence to support
any restrictions or limitations without considering the
actual requirements of Kelly's job. The Vocational
Specialist relied on Dr. Green's conclusion that no

85a
restrictions or limitations were warranted in summarily
concluding that Kelly was capable of performing his job
duties. Reliance relied on both of these reports to
thereafter deny Kelly's claim for benefits without
giving any weight to his treating physician's diagnosis
or his own description of his job activities. Reliance's
failure to consider the duties Kelly was actually
performing prior to the accident and whether Kelly was
physically capable of performing those duties after the
accident was unreasonable and demonstrates Reliance's
exercise of discretion in denying Kelly's claim was
arbitrary and capricious.
IV. Conclusion
On
remand,
Reliance
conducted
an
inappropriately selective review of the evidence, placed
unreasonable emphasis on the reports of consultants
who never examined Kelly, chose not to use an IME,
and failed to engage in any meaningful analysis of
Kelly's material job duties. These deficiencies in the
context of Reliance's inherent conflict of interest and
questionable pre-final decision activities amount to an
arbitrary and capricious exercise of discretion in
violation of ERISA.
Accordingly, Kelly's motion for summary
judgment with respect to Count I of his Amended
Complaint is granted4, and Reliance's motion for
summary judgment is denied. Kelly is entitled to
receive the LTD benefits owed to him under the
Plan.5 The Court will entertain Kelly's request to
recover costs and attorneys' fees. An appropriate order
will be entered.

86a
Footnotes
1As noted above, in his supplemental certification Kelly
also claimed to have cardiovascular issues. This
resulted in a review of the records from his cardiologist
on remand. Because the first cardiac treatment record
in the administrative file is dated August of 2006, after
the conclusion of the Elimination Period, the Court has
not considered Kelly's cardiac condition in its analysis.
Therefore, the Court will not discuss the portion of the
claim denial related to Kelly's cardiac condition, or the
report of the independent cardiologist consultant.
2In their briefs, the parties argue at length about the
MRI. Kelly claims that Reliance withheld the 16 pages
of MRI images from its consultants. (Pl's Br. p. 7.)
Reliance, counters by noting that it gave the images to
its consultants but Kelly never provided an MRI report
analyzing the MRI images. (Def's Opp. Br. p. 12.) In a
letter written after the claim determination, Dr. Green
confirmed that he had seen the 16 images but they were
poor copies and thus he did not base his conclusions on
them. (Id. at Ex. F.) This debate appears irrelevant to
the ultimate inquiry because regardless of who had
what, Dr. Green confirmed he did not rely on the MRI
scans in completing his report.
3The Reliance policy merely states that “written proof
of Total Disability must be sent to us within ninety (90)
days after Total Disability occurs.” (AR013.) The policy
does not delineate what is and is not acceptable
“written proof.”

87a
4It should be noted that Kelly moved for Summary
Judgment against both Reliance, Count I of his
Amended Complaint, and Penn Mutual, Count II of his
Amended Complaint. Penn Mutual filed an opposition
brief that opposed only an award of compensatory
damages in the event the Court concluded that the
denial was arbitrary and capricious. Because neither
Kelly nor Penn Mutual presented any arguments
relating to Kelly's “specific allegations” against Penn
Mutual, the Court has not granted summary judgment
as to Count II.
5Kelly has also requested an award of “money
damages” from Reliance, distinct from the LTD benefit
payments owing. Kelly has not argued in his brief why
such money damages are warranted, nor presented any
facts or law to support the request. Therefore, the court
denies Kelly's request for additional money damages.

88a
3/28/2019
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
_____________
No. 18-1162
_____________

THOMAS P. KELLY, JR.,
Appellant
v.
THE PENN MUTUAL LIFE INSURANCE
COMPANY; RELIANCE STANDARD LIFE
INSURANCE COMPANY
_____________________________
(D. N.J. No. 2-09-cv-02478)
_____________

SUR PETITION FOR REHEARING
_____________

Present: SMITH, Chief Judge, MCKEE, AMBRO,
CHAGARES,
JORDAN,
HARDIMAN,

89a
GREENAWAY, JR., KRAUSE, RESTREPO, BIBAS,
PORTER, SCIRICA* and COWEN*, Circuit Judges.
The petition for rehearing filed by appellant in
the above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the circuit
in regular active service, and no judge who concurred in
the decision having asked for rehearing, and a majority
of the judges of the circuit in regular service not having
voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
BY THE COURT,
s/ Thomas M. Hardiman
Circuit Judge
Dated: March 28, 2019
Lmr/cc: Thomas P. Kelly, III
Joshua Bachrach

*

Judge Scirica and Judge Cowen’s votes are limited to
panel rehearing

